<html>
<title> - TAKING DOWN THE CARTELS: EXAMINING UNITED STATES-MEXICO COOPERATION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
  TAKING DOWN THE CARTELS: EXAMINING UNITED STATES-MEXICO COOPERATION
=======================================================================



                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 2, 2014

                               __________

                           Serial No. 113-60

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
88-779                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Tulsi Gabbard, Hawaii
Lou Barletta, Pennsylvania           Filemon Vela, Texas
Richard Hudson, North Carolina       Steven A. Horsford, Nevada
Steve Daines, Montana                Eric Swalwell, California
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina
Vacancy
                   Brendan P. Shields, Staff Director
          Michael Geffroy, Deputy Staff Director/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     6
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................     7

                               Witnesses

Mr. James A. Dinkins, Executive Associate Director, Homeland 
  Security Investigations, U.S. Immigrations and Customs 
  Enforcement, U.S. Department of Homeland Security:
  Oral Statement.................................................    10
  Joint Prepared Statement of James A. Dinkins and Alan D. Bersin    11
Mr. John D. Feeley, Principal Deputy, Bureau of Western 
  Hemisphere Affairs, U.S. Department of State:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16
Mr. Christopher Wilson, Associate, Mexico Institute, Woodrow 
  Wilson International Center:
  Oral Statement.................................................    20
  Prepared Statement.............................................    23
Mr. Alan D. Bersin, Assistant Secretary of International Affairs 
  and Chief Diplomatic Officer, Office of International Affairs, 
  U.S. Department of Homeland Security:
  Oral Statement.................................................    25
  Joint Prepared Statement of James A. Dinkins and Alan D. Bersin    11

                             For the Record

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Letter.........................................................     4

                                Appendix

Questions From Hon. Loretta Sanchez for James A. Dinkins.........    55
Questions From Hon. Loretta Sanchez for John D. Feeley...........    55


  TAKING DOWN THE CARTELS: EXAMINING UNITED STATES-MEXICO COOPERATION

                              ----------                              


                        Wednesday, April 2, 2014

             U.S. House of Representatives,
                    Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:12 a.m., in Room 
311, Cannon House Office Building, Hon. Michael T. McCaul 
[Chairman of the committee] presiding.
    Present: Representatives McCaul, Broun, Duncan, Palazzo, 
Barletta, Brooks, Perry, Thompson, Sanchez, Jackson Lee, 
Clarke, Richmond, Barber, Payne, O'Rourke, and Vela.
    Chairman McCaul. Committee on Homeland Security will come 
to order. Committee is meeting today to examine the Federal 
Government's cooperative efforts with the government of Mexico 
to combat the drug cartels.
    Mr. Broun--Dr. Broun, if you would, thank you.
    I recognize myself for an opening statement.
    Just last month Pena Nieto--his administration, in 
coordination with the U.S. law enforcement, took down the 
biggest drug kingpin in the world, El Chapo Guzman, who was 
responsible for thousands of deaths and for violence that 
stretches across the globe. Leading up to Guzman's capture, 
Mexican authorities also arrested a series of his significant 
lieutenants.
    This past July President Pena Nieto's administration also 
captured Miguel Angel Trevino Morales, the leader of the Los 
Zetas cartel. This was the most significant arrest prior to 
Guzman's and is indicative of President Pena Nieto's commitment 
to bring down the cartels.
    Now we have an opportunity to examine the bilateral 
cooperation between our two nations that resulted in this 
progress and how we can build upon these successes to further 
combat the cartels.
    I applaud Immigration and Customs Enforcement for their 
participation, along with DEA, U.S. Marshals, State Department, 
and Mexican authorities for this capture. The involvement of 
our agencies stems from the fact that Guzman's reach went far 
beyond Mexican borders. He is Public Enemy No. 1 in Chicago and 
carries indictments in California, New York, and my home State 
of Texas.
    As we all know, the capture of this drug lord was 
significant both symbolically and operationally to the Sinaloa 
Cartel. However, we know that drug trafficking organizations 
like this one will continue, and nowhere is it near extinction.
    The best way for us to counter them is by working together, 
and today we are here to examine U.S.-Mexico cooperation in 
battling the cartels and the cartels' efforts on our homeland 
security.
    Americans understand that the threat posed by drug 
traffickers is particularly intense along our Southwest Border. 
These organizations compete against each other for smuggling 
routes into the United States, creating a war zone that engulfs 
innocent people living in the region. The spillover violence in 
the United States stems from a variety of criminal activities 
which bring people and illicit goods into this country.
    Drug trafficking organizations are highly agile. With 
billions of dollars in capital, these cartels are capable of 
corrupting officials and responding violently when targeted by 
law enforcement.
    Additionally, these organizations are not constrained by 
boundaries, so often their crimes pass through many 
jurisdictions, creating an often challenging lanscape for law 
enforcement and reinforcing the need to work together to 
counter these criminals.
    Cartels like the Sinaloas and the Zetas in Northern Mexico 
are growing their capabilities and infrastructure, and in doing 
so can facilitate the illicit flow of people, drugs, and 
weapons across our borders. There is a constant risk of these 
organizations partnering with foreign terrorist organizations, 
and the past arrest of an Iranian national suspected of 
plotting to assassinate the Saudi ambassador in the United 
States allegedly involved Mexican cartel members. This depth 
and coordination of criminal activity highlights the need for 
heightened awareness of the narcoterrorist nexus within the 
Mexican cartels.
    Because of the threats to both the United States and Mexico 
stemming from organized crime, both of our nations share 
security objectives for our borders: Keep threats out but 
ensure the expeditious flow of commerce. Our respective law 
enforcement agencies have been working closely together to come 
to a common understanding of how to synchronize enforcement 
operations on each side of the border.
    However, we cannot just focus on our shared border. Mexico 
must stop criminals long before they reach us.
    As Mexico's economy improves, it is now seeing an increase 
in immigration from Central and South America. This will place 
a great burden on Mexico to better secure its southern border, 
and we are working, through the Merida Initiative, to assist in 
not only technology applications but operational planning and 
training to support President Pena Nieto's goals as well as 
those of the United States.
    As we saw last month, the ability to share information 
between the U.S. and Mexico's law enforcement agencies, as well 
as plan and conduct bilateral operations, is critical to 
achieving our mutual goal of combating the cartels.
    As part of that effort, I and other Members of this 
committee recently sent a letter to Attorney General Holder and 
Secretary of State Kerry encouraging them to request Guzman's 
extradition to the United States pursuant to the extradition 
treaty between our two nations. As with several other 
extraditions of narcotic traffickers from Mexico to the United 
States in recent years, this cooperation ensures these 
criminals will never threaten the law-abiding citizens of our 
two great nations ever again.
    With the support of President Pena Nieto, we have the 
opportunity to work together to continue to strengthen our 
partnerships and enhance our mutual security. We understand the 
sensitive nature of the cross-border cooperation, and I want to 
once again thank all the agencies involved in Guzman's capture. 
Now we have an opportunity to further that collaboration and 
build on the momentum that already exists.
    [The statement of Chairman McCaul follows:]
                Statement of Chairman Michael T. McCaul
                             April 2, 2014
    Just last month, the Pena Nieto administration, in coordination 
with U.S. law enforcement, took down the biggest drug kingpin in the 
world. ``El Chapo'' Guzman was responsible for thousands of deaths, and 
for violence that stretches across the globe. Leading up to Guzman's 
capture, Mexican authorities also arrested a series of his lieutenants. 
This past July, President Pena Nieto's administration also captured 
Miguel Angel Trevino Morales, the leader of the Los Zetas cartel. This 
was the most significant arrest prior to Guzman's and is indicative of 
President Pena Nieto's commitment to bringing down the cartels. Now we 
have an opportunity to examine the bilateral cooperation between our 
two nations that resulted in this progress, and how we can build upon 
these successes to further combat the cartels.
    I applaud Immigration and Customs Enforcement (ICE) for their 
participation along with the Drug Enforcement Administration (DEA), 
U.S. Marshals, the U.S State Department, and Mexican authorities for 
this capture. The involvement of our agencies stems from the fact that 
Guzman's reach went far beyond Mexico's borders. He is Public Enemy No. 
1 in Chicago and carries indictments in California, New York, and my 
home State of Texas.
    As we all know, the capture of this drug lord was significant both 
symbolically and operationally to the Sinaloa Cartel, however we know 
that drug trafficking organizations like this one will continue on, and 
are nowhere near extinction. The best way for us to counter them is by 
working together, and today we are here to examine U.S.-Mexico 
cooperation in battling the cartels, and the cartel's effects on our 
homeland security.
    Americans understand that the threat posed by drug traffickers is 
particularly intense along our Southwest Border. These organizations 
compete against each other for smuggling routes into the United 
States--creating a war zone that engulfs innocent people living in the 
region. The spillover violence in the United States stems from a 
variety of criminal activities which bring people and illicit goods 
into the country.
    Drug trafficking organizations are highly agile. With billions of 
dollars in capital, these cartels are capable of corrupting officials 
and responding violently when targeted by law enforcement. 
Additionally, these organizations are not constrained by boundaries, so 
often their crimes pass through many jurisdictions--creating an often 
challenging landscape for law enforcement--and reinforcing the need to 
work together to counter these criminals.
    Cartels like the Sinaloas and the Zetas in Northern Mexico are 
growing their capabilities and infrastructure and in doing so can 
facilitate the illicit flow of people, drugs, and weapons across our 
borders. There is the constant risk of these organizations partnering 
with Foreign Terrorist Organizations (FTO), and the past arrest of an 
Iranian national suspected of plotting to assassinate the Saudi Arabian 
ambassador in the United States allegedly involved Mexican cartel 
members. This depth and coordination of criminal activity highlights 
the need for heightened awareness of the narco-terrorist nexus within 
the Mexican cartels.
    Because of the threats to both the United States and Mexico 
stemming from organized crime, both of our nations share security 
objectives for our borders--keep threats out, but ensure the 
expeditious flow of commerce. Our respective law enforcement agencies 
have been working closely together to come to a common understanding of 
how to synchronize enforcement operations on each side of the border. 
However, we cannot just focus on our shared border, Mexico must stop 
criminals long before they reach us. As Mexico's economy improves, it 
is now seeing an increase in immigration from Central and South 
America. This will place a great burden on Mexico to better secure its 
southern border, and we are working through the Merida Initiative to 
assist in not only technology applications, but operational planning 
and training to support President Pena Nieto's goals as well as those 
of the United States.
    As we saw last month, the ability to share information between U.S. 
and Mexico's law enforcement agencies, as well as plan and conduct 
bilateral operations, is critical to achieving our mutual goal of 
combating the cartels. As part of that effort, I and other Members of 
this committee, recently sent a letter to Attorney General Holder and 
Secretary of State Kerry encouraging them to request Guzman's 
extradition to the United States pursuant to the extradition treaty 
between our two nations. As with several other extraditions of 
narcotics traffickers from Mexico to the United States in recent years, 
this cooperation ensures these criminals will never threaten the law-
abiding citizens of our two great nations ever again.
    With the support of President Pena Nieto, we have the opportunity 
to work together to continue to strengthen our partnerships and enhance 
our mutual security. We understand the sensitive nature of the cross-
border cooperation, and I want to once again thank all of the agencies 
involved in Guzman's capture. Now, we have an opportunity to further 
that collaboration and build on the momentum that already exists.

    Chairman McCaul. Without objection, I do want to enter a 
copy of the letter that was sent to Attorney General Holder and 
the Secretary of State for insertion into the record.
    [The information follows:]
             Letter Submitted by Chairman Michael T. McCaul
                                     April 1, 2014.
The Honorable John Kerry,
Secretary, U.S. Department of State, 2201 C Street, NW, Washington, DC 
        20250.
The Honorable Eric Holder,
Attorney General, U.S. Department of Justice, 950 Pennsylvania Ave., 
        NW, Washington, DC 20530.
    Dear Secretary Kerry and Attorney General Holder: We applaud the 
United States and Mexican administrations on their close cooperation in 
carrying out the successful operation that resulted in the capture of 
Sinaloa drug cartel leader Joaquin ``El Chapo'' Guzman. The well 
planned and executed joint operation stands as a tribute to the 
political will on both sides of the border to tackle organized crime 
and demonstrates unprecedented coordination between the United States 
and Mexico. The unrelenting effort to bring Guzman to justice marks a 
significant accomplishment in our shared goal of defeating the global 
illegal drug enterprise that poisons our country and the region.
    After thirteen years of eluding capture and directly contributing 
to devastating violence in Mexico and the United States, it is clear 
that Guzman presents an extraordinary threat to the United States and 
Mexico. Guzman rightfully deserves to be prosecuted. We understand that 
your two departments are currently engaged in discussions about whether 
to seek Guzman's extradition to the United States. Pursuant to the 
extradition treaty between the United States and Mexico, we encourage 
you to formally request that the Mexican Government extradite Guzman to 
the United States, where he is facing indictments in multiple states. 
To date, seven federal districts have brought indictments against him, 
including the most serious of criminal charges. As you may know, 
federal prosecutors in New York and Illinois have already publicly said 
they will seek his extradition.
    That Guzman should be extradited is not unprecedented. In 2007, 
Osiel Cardenas Guillen, who for many years headed the storied Gulf Drug 
Trafficking Organization (DTO) or cartel, was extradited to the United 
States where he was prosecuted, convicted, and subsequently sentenced 
to 25 years in prison.
    In February 2009, Miguel Caro-Quintero, the reputed leader of the 
now-defunct Sonora cartel was extradited from Mexico to the United 
States. He eventually pled guilty to marijuana trafficking and 
distribution, and is serving a 17-year sentence in a U.S. prison.
    In 2010, Mexico extradited Jesus Vicente Zambada-Niebla to the 
United States. Zambada-Niebla had been arrested in Mexico in March 2009 
and is facing charges in the United States for his alleged role as 
logistics coordinator for the Sinaloa cartel.
    Also in 2010, Mexico extradited the former Mayor of Cancun, Mario 
Ernesto Villanueva-Madrid, to the United States to face charges of 
conspiring with the Juarez cartel. Villanueva-Madrid was sentenced in 
June 2013 to nearly 11 years in prison in the United States. It is our 
understanding that following completion of his sentence in the United 
States, he will be sent back to Mexico where he faces additional 
charges that may require him to spend another 22 years in prison.
    In April 2011, Mexico extradited Benjamin Arellano-Felix, a leader 
of the Arellano-Felix DTO, to the United States to face racketeering, 
money laundering, and narcotics trafficking charges in California. Less 
than a year later, he received a 25-year prison sentence in April 2012, 
which he is now serving in U.S. prison.
    And more recently, in March 2013, Mexico extradited Cesar Alfredo 
Meza-Garcia, an alleged leader of a cell of the Tijuana cartel, to the 
United States to face the charges against him.
    These precedents make clear Mexico's willingness to extradite 
criminals who have broken U.S. laws to face justice in the U.S., and we 
ask that you request that El Chapo face this same justice in the U.S. 
for his crimes.
    Once again we commend you and our Mexican partners on this 
extraordinary success against Guzman, and look forward to continuing to 
work with you and others in the Mexican Government to bring him to the 
United States for trial.
            Sincerely,
                                         Michael T. McCaul,
                                                          Chairman.
                                             Peter T. King,
       Chairman, Subcommittee on Counterterrorism and Intelligence.
                                         Candice S. Miller,
            Chairman, Subcommittee on Border and Maritime Security.
                                            Patrick Meehan,
Chairman, Subcommittee on Cybersecurity, Infrastructure Protection, 
                                         and Security Technologies.
                                               Jeff Duncan,
     Chairman, Subcommittee on Oversight and Management Efficiency.
                                            Richard Hudson,
                 Chairman, Subcommittee on Transportation Security.
                                           Susan W. Brooks,
   Chairman, Subcommittee on Emergency Preparedness, Response, and 
                                                    Communications.

    Chairman McCaul. Chairman now recognizes the Ranking 
Member, the gentleman from Mississippi, Mr. Thompson.
    Mr. Thompson. Thank you, Mr. Chairman, for holding today's 
hearing.
    I also want to thank the witnesses for their testimony.
    But first I would like to recognize Mr. Dinkins, who has 
served us in a capacity for 25 years at the Customs Service who 
might be looking forward to a rocking chair or whatever you do 
when you retire, but we want to recognize you for your service. 
Chairman said you are too young for a rocking chair, but we do 
thank you for your service.
    On the morning of February 22, 2014, drug trafficking boss 
and leader of the Sinaloa Cartel, Joaquin El Chapo Guzman, was 
captured in Mazatlan, Mexico, a resort town of Mexico's Pacific 
coast. Guzman was captured from a Mexican--Guzman, who escaped 
from a Mexican prison by bribing prison officials, had been on 
the run since 2001.
    At the time of his arrest, Guzman was considered the most 
powerful drug trafficker in the world. Guzman's arrest was a 
historic, commendable, joint effort between United States 
authorities--including the Drug Enforcement Administration, and 
Immigrations Customs Enforcement, Homeland Security 
Investigation--and Mexican authorities.
    Guzman's arrest represents a significant victory in the 
Mexican drug war that has killed at least 70,000 people, 
including children. Ironically, his capture was completed 
without any gunfire.
    After Guzman's arrest, the question remains on where he 
will be prosecuted and if he will be extradited to the United 
States. A successful prosecution of Guzman in Mexico could show 
the world that, under President Nieto's leadership, the Mexican 
government is committed to taking down the cartels. However, 
Guzman is responsible for bringing drugs, including marijuana, 
cocaine, heroin, and methamphetamines into the United States, 
and there are seven indictments in five different States 
against him.
    While we await the Department of Justice decision whether 
or not to seek Guzman extradition, we need to evaluate what 
Guzman's arrest means for the United States and its cooperation 
with Mexico to combat drug trafficking organization and other 
transnational crimes.
    Although the arrest of Guzman is encouraging, we must 
understand that the kingpin strategy of taking down top drug 
trafficking organizational leaders is not likely to address the 
cartel problem by itself. Instead, fundamental improvements to 
Mexico's law enforcement and judicial systems, economic 
reforms, and other systemic changes will be necessary.
    The United States has a vested interest in addressing drug 
trafficking organizations and their illicit activities in the 
United States and beyond our borders. While cartel-related 
violence has not occurred here in the way it has in Mexico and 
our border communities remain quite safe, narcotics trafficking 
and associated criminal activities, including human trafficking 
and human smuggling, occurs in communities across the United 
States.
    Partnering with the Mexicans where appropriate to address 
the cartel can be an effective method of helping to curb 
cartel-related activities before it crosses our border. The 
Merida Initiative has provided a means for U.S. support through 
equipment, training, and technical expertise to our Mexican 
partners.
    Within DHS, U.S. Customs Enforcement operates several 
initiatives aimed at working cooperatively with Mexico to 
combat the cartels, including operating a border enforcement 
security task force, referenced BEST, and vetted units within 
Mexico. U.S.-Mexico security cooperation is essential to 
addressing the cartels that affect both nations.
    It is my hope that this committee continues to find 
effective ways to support cooperation.
    With that, Mr. Chairman, I yield back.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             April 2, 2014
    On the morning of February 22, 2014, drug trafficking boss and 
leader of the Sinaloa Cartel, Joaquin El Chapo Guzman was captured in 
Maztalan, Mexico, a resort town on Mexico's Pacific Coast. Guzman, who 
escaped from a Mexican prison by bribing prison officials, had been on 
the run since 2001.
    At the time of his arrest, Guzman was considered the most powerful 
drug trafficker in the world. Guzman's arrest was a historic, 
commendable joint effort between United States authorities--including 
the Drug Enforcement Administration and Immigrations and Customs 
Enforcement's Homeland Security Investigations--and Mexican 
authorities. Guzman's arrest represents a significant victory in the 
Mexican drug war that has killed at least 70,000 people including 
children. Ironically, his capture was completed without any gunfire.
    After Guzman's arrest, the question remains on where he will be 
prosecuted and if he will be extradited to the United States. A 
successful prosecution of Guzman in Mexico could show the world that 
under President Nieto's leadership, the Mexican government is committed 
to taking down the cartels.
    However, Guzman is responsible for bringing drugs--including 
marijuana, cocaine, heroin, and methamphetamines--into the United 
States, and there are seven indictments in five different States 
against him. While we await the Department of Justice's decision 
whether or not to seek Guzman's extradition, we need to evaluate what 
Guzman's arrest means for the United States and its cooperation with 
Mexico to combat drug trafficking organizations and other transnational 
crimes.
    Although the arrest of Guzman is encouraging, we must understand 
that the ``kingpin strategy'' of taking down top drug trafficking 
organization leaders is not likely to address the cartel problem by 
itself.
    Instead, fundamental improvements to Mexico's law enforcement and 
judicial systems, economic reforms, and other systemic changes will be 
necessary. The United States has a vested interest in addressing drug 
trafficking organizations and their illicit activities in the United 
States and beyond our borders.
    While cartel-related violence has not occurred here in the way it 
has in Mexico and our border communities remain quite safe, narcotics 
trafficking and associated criminal activity, including human 
trafficking and human smuggling, occurs in communities across the 
United States. Partnering with the Mexicans, where appropriate, to 
address the cartels can be an effective method of helping to curb 
cartel-related activity before it crosses our border. The Merida 
Initiative has provided a means for U.S. support through equipment, 
training, and technical expertise to our Mexican partners.
    Within DHS, U.S. Immigration and Customs Enforcement operates 
several initiatives aimed at working cooperatively with Mexico to 
combat the cartels, including operating a Border Enforcement Security 
Task Force (BEST) and vetted units within Mexico. U.S.-Mexico security 
cooperation is essential to addressing the cartels that affect both 
nations. It is my hope that this committee continues to find effective 
ways to support this cooperation.

    Chairman McCaul. I thank the Ranking Member.
    Other Members of the committee are reminded that opening 
statements may be submitted for the record.
    [The statement of Hon. Jackson Lee follows:]
                  Statement of Hon. Sheila Jackson Lee
    Good morning and welcome. I would like to begin by thanking 
Chairman McCaul and Ranking Member Thompson for agreeing to convene 
this hearing on, ``Taking Down the Cartels: Examining the United 
States-Mexico Cooperation.''
  <bullet> I thank the witnesses testifying today, James Dinkins, 
        executive associate director, Homeland Security Investigations, 
        U.S. Immigration and Customs Enforcement, Department of 
        Homeland Security.
  <bullet> Alan Bersin, assistant secretary of international affairs 
        and chief diplomatic officer, Department of Homeland Security 
        (Democratic witness).
  <bullet> John Feeley, principal deputy assistant secretary of state 
        for western hemisphere affairs, Department of State.
  <bullet> Chris Wilson, associate, Mexico Institute, Woodrow Wilson 
        International Center for Scholars.
    Thank you all for being here and sharing your expertise with us.
    In one of the most atrocious acts of violence against an innocent 
U.S. citizen, Bobby Salcedo was killed execution-style while 
vacationing in Mexico by a single gunshot to the head after being 
kidnapped. Mr. Salcedo was kidnapped while at dinner with family and 
friends in a restaurant and had no apparent connections to the drug or 
arms trade.
    Mr. Salcedo was a pillar of his community in El Monte City, 
California where he served on the local school board, and also served 
as the vice principal and football coach of Mountain View High School. 
Mr. Salcedo also served as a local leader for such organizations as the 
South El Monte/Gomez Palacio, Durango, Mexico Sister City Organization.
    Furthermore, Mr. Salcedo was in the process of earning a doctoral 
degree in educational leadership at the University of California, Los 
Angeles, and had previously earned his bachelor's degree in history 
from California State University, Long Beach, and a master's degree in 
educational administration from California State University, San 
Bernardino.
    Violence from the drug trade has also created many problems in my 
home city of Houston, Texas. Houston has one of the highest murder 
rates among U.S. cities with a population over 1 million. Furthermore, 
much of this violence likely stems from the fact that Houston is a 
major hub for drug traffickers, who supply cocaine, marijuana, heroin, 
and methamphetamine to distributors in other American markets. Many of 
these issues surrounding violence also stem from the problem of trans-
national gangs and organized crime cartels.
    There are currently at least seven drug cartel organizations 
operating between the United States and Mexico. These groups are not 
only involved in the illicit transportation of drugs but are also 
involved in the illicit trade of firearms, execution of public 
officials and these groups have also terrorized entire local 
populations.
    Many of these gangs and cartel organizations also have vast links 
and networks within the United States, some even managing to penetrate 
American junior high and high schools. It is important that we 
recognize this threat and work towards the dissolution of these groups 
and continue to promote legitimate trans-national trade and exchange.
    I would like to commend the Mexican government under the leadership 
of President Felipe Calderon for having significantly increased their 
efforts to stop the drug cartels and end the violence, deploying some 
45,000 troops and 5,000 police throughout Mexico. We in the United 
States will continue to support the Mexican government as we did in 
2012 when over $1,300,000,000 was appropriated to the Mexican 
government to fight the illicit drug trade. This money was appropriated 
under the Merida Initiative to help break the power of the drug 
cartels, assist the Mexican government in strengthening its military 
organizations, to help improve the capacity of its justice system, 
curtail gang activity in Mexico, and to diminish demand for drugs in 
the region.
    It is important that we continue to work vigilantly towards 
breaking the illicit drug trade links and networks between the United 
States and Mexico while working together to create a bright future 
through legitimate commercial and financial trade between our two great 
nations. I am quite confident that through a concerted effort towards 
increasing trans-national trade and creating opportunities in the 
legitimate sector we can work towards a brighter future for both the 
United States and Mexico.
    The lack of bi-national coordination, in effect, provides cartel 
leaders a sanctuary south of the border. Without much better 
coordination with Mexican law enforcement on the most important cases 
involving the leaders of the cartels, they will continue to make a 
mockery of our border defenses.
    One goal which would be specific enough to give a clear idea of 
whether we were succeeding or failing would be the arrest, prosecution, 
and incarceration of Chapo Guzman, the notorious leader of the Sinaloa 
cartel. Such a goal, clearly stated and unequivocal, would provide 
focus and accountability to the efforts and would force a close working 
relationship among law enforcement across the border. If U.S. forces 
can find Osama bin Laden, I am sure, with Mexican help, they can find 
and arrest Chapo. After all, Forbes magazine publishes his photograph 
in its annual edition on the world's billionaires. That arrest would do 
more to stop the flow of contraband into the United States and the 
slaughter in Mexico than all the billions spent so far. With Chapo and 
other cartel leaders in custody awaiting trial, the Obama 
administration could validly proclaim that it has made the border 
materially safer.
    Time is of the essence. The cartels are gaining significant 
authority within some areas in Mexico, and the Mexican people 
understandably tire of the bloodshed and cost of fighting them. I have 
little doubt that, when the Calderon administration ends in just over a 
year, Mexico's commitment to the fight against the cartels will wane 
significantly, if not actually come to an end. In addition, the cartels 
are rapidly diversifying into new lines of criminal activity, taking 
over the production and sale of pirated music CDs, videos, and 
software. They steal and distribute petroleum and hijack commercial 
trucks on an unprecedented scale. As they diversify, the cartels become 
harder and harder to isolate from the mainstream economy and harder to 
close down.
    This is the time for a maximum coordinated push. Border defense is 
far more than just playing a deadly version of Red Rover. One of the 
consequences of the hysteria about border security is the build-up of 
the Border Patrol at the expense of Customs enforcement. The emphasis 
on protecting the long stretches of remote border between the official 
crossings (or ``ports'') has a price. With the de-emphasis on Customs 
inspections at the ports and the resulting strain on Customs and Border 
Protection (CBP), more contraband gets through the ports.
    Always opportunistic, the cartels have seen and seized the 
opportunity to put more contraband through the ports of entry. Most of 
the criminal activity has shifted to the border crossings, not the 
places in between. As not only a Member of Congress representing the 
18th Congressional District of Houston, Texas, but also as the Ranking 
Member of the Border and Maritime Security Subcommittee, I have become 
particularly concerned by this misallocation of resources. But, the 
popular demand is for beefing up enforcement, not better inspections. 
Moreover, low staffing at the ports has damaged legitimate cross-border 
trade, with imported goods condemned to sit additional hours waiting to 
be inspected. By appearing tough--making fortification of the border 
with additional Border Patrol the top priority, while deemphasizing the 
ports of entry--it is easier for the criminals to come through our 
front door. Once again, the symbol has trumped reality.
    If the United States wants effective border security more effective 
law enforcement measures must be taken. By attacking money laundering 
and making bi-national criminal investigation and prosecution of the 
cartel bosses a priority, the border can be made significantly more 
secure.
    In the process, the mayhem in Mexico and the smuggling of drugs and 
people into the United States will be reduced. There must be a unified 
focus. All agencies must get on the same page for the effort to 
succeed. State and local law enforcement, with the coordinated efforts 
of all relevant Federal agencies, can win this. Nothing less will.
    I look forward to working with my colleagues on both sides of the 
aisle to confront the challenges that still lie ahead, to face what is 
hard, and to achieve what is great. Thank you, Mr. Chairman and Ranking 
Member Thompson. I yield back the balance of my time.

    Chairman McCaul. We are pleased to have four distinguished 
witnesses with us here today to discuss this important topic.
    First, Mr. James Dinkins, the executive associate director 
of Homeland Security Investigations for U.S. Immigration and 
Customs Enforcement. As the director, Mr. Dinkins has direct 
oversight of ICE's investigative and enforcement initiatives 
and operations targeting cross-border criminal organizations 
that exploit America's legitimate travel, trade, financial, and 
immigration systems for their illicit purposes. Mr. Dinkins 
held a number of key leadership positions within ICE, including 
as special agent in charge for HSI Washington, DC.
    I must also note, as the Ranking Member did, that Mr. 
Dinkins will be retiring this month after many years of service 
to our Nation.
    We thank you, sir, for your service and wish you well in 
your retirement, although you are young enough to have a second 
career, I personally think.
    Next is Mr. John Feeley, serves as the principal deputy 
assistant secretary for Western Hemisphere Affairs at the U.S. 
Department of State. Mr. Feeley has responsibility for the 
daily management of regional policy implementation and the 
supervision of 50 diplomatic posts in the Americas.
    He has also been the department's director for Central 
American affairs and deputy director for Caribbean affairs. Mr. 
Feeley's overseas assignments have included Mexico City; Santo 
Domingo; Dominican Republic; and Bogota, Colombia.
    Thank you, sir, for being here.
    Mr. Christopher Wilson is an associate at the Mexico 
Institute of the Woodrow Wilson International Center for 
Scholars, where he leads the institute's research and 
programming on regional economic integration and U.S.-Mexico 
border affairs. He is the author of ``Working Together: 
Economic Ties Between the United States and Mexico.'' Mr. 
Wilson has previously done analysis on the nation of Mexico for 
the U.S. military and as a researcher in American University's 
Center for North American Studies.
    Finally, we have Mr. Alan Bersin, currently serves as an 
assistant secretary of international affairs and chief 
diplomatic officer for the Department of Homeland Security, a 
position he assumed on January 3, 2012. Previously he served as 
commissioner of U.S. Customs and Border Protection, where he 
oversaw operations of CPB's 57,000-employees workforce. Mr. 
Bersin is a former secretary of education for California, and 
dear to my heart as an AUSA United States attorney for the 
Southern District of California.
    Witnesses' full statements will be included in the record.
    Chairman now recognizes Mr. Dinkins for 5 minutes.

 STATEMENT OF JAMES A. DINKINS, EXECUTIVE ASSOCIATE DIRECTOR, 
HOMELAND SECURITY INVESTIGATIONS, U.S. IMMIGRATIONS AND CUSTOMS 
       ENFORCEMENT, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Dinkins. Thank you, sir.
    Chairman McCaul and Ranking Member Thompson and 
distinguished Members of the committee, thank you for the 
opportunity to appear before you today to discuss the close 
collaboration between ICE Homeland Security Investigations and 
our partners in Mexico.
    Each and every day, HSI special agents in the United States 
as well as special agents assigned to our many offices in 
Mexico exchange investigative information and intelligence with 
our Mexican counterparts. HSI cannot succeed in combating 
transnational criminal organizations without strong working 
relationships, and I can assure you we have the best 
relationships with our Mexican counterparts as we have had. 
From Mexican customs officials to the federal police, the 
prosecutors to the military, each one of these agencies have 
proven to be a key partner with ICE.
    The recent successful capture and arrest of the Sinaloa 
Cartel leader, El Chapo Guzman, by the Mexican military and law 
enforcement did not only send a devastating blow to the Sinaloa 
Cartel, but it also sent a clear message to the world--a 
message that Mexico is willing and able to tackle the most 
sophisticated and brutal drug trafficking organizations that 
exist.
    The United States and Mexico share a unique border, 
immigration challenges, trade, as well as we exchange cultural 
beliefs. The nearly 2,000 miles of border between Mexico and 
the United States is one of the most frequently-crossed borders 
in the world. That combined with the 46 legitimate border 
crossings, as well as the harsh desert and mountainous terrain 
present unique challenges to law enforcement and border 
security.
    A result of these challenges, challenges that both Mexico 
and the United States face--our relationship has continued to 
grow and mature with our Mexican counterparts.
    While the recent arrest of El Chapo made news around the 
world, there are many other examples of successful 
collaboration between Mexico and the United States that are 
less known but are very important. For example, recently HSI 
Mexico City received information pertaining to the sexual 
exploitation of several children.
    Our investigation revealed that the adult suspect resided 
in Mexico was posing as a teenager, befriending individuals on-
line, and enticing them to provide pornographic images of 
themselves. He later revealed who he was as an adult and 
started forcing them and extorting them to provide more obscene 
materials.
    HSI Mexico City provided the investigative lead to a 
special investigative unit within PGR, the Mexican attorney 
general's office, who quickly responded, located, and arrested 
the suspect.
    Another example that demonstrates Mexico's rapid response 
to investigative leads and intelligence came last October 
during the most recent discovery of a sophisticated, 
subterranean cross-border tunnel located near Otay Mesa port of 
entry in California. During the course of that investigation, 
we developed information indicating that the tunnel was being 
constructed with an entrance in a warehouse south of the border 
in Mexico and then exiting through a warehouse in the United 
States.
    We provided that information to Mexico, and within moments 
the Mexican military responded, located the warehouse and the 
entrance in Mexico. Collectively in the United States HSI was 
able to seize 11,000 pounds of marijuana, 149 kilos of cocaine, 
make three arrests, as well as the Mexican military and law 
enforcement seized an additional 6,000 pounds at the tunnels 
entrance in Mexico.
    In addition to the exchange of investigative information 
and intelligence, we also frequently conduct joint training 
with our counterparts in Mexico. Just 2 weeks ago ICE hosted 
the third Mexican customs officers training course. Twenty-four 
Mexican customs officers attended the training course, which is 
modeled after the HSI special agent training course, which is 
held in the Federal Law Enforcement Training Center in Glynco, 
Georgia.
    In addition, just last month HSI hosted, with our partners 
at Department of State, a gang training seminar in Mexico City 
that was attended by over 300 law enforcement officers from 
countries across Central America.
    These are just two examples of the joint training as well 
as investigative information sharing that demonstrates the 
partnership with Mexico continues to grow.
    In closing, I want to emphasize that no single agency or 
country can tackle transnational criminal organizations 
unilaterally. Rather, it requires a multiagency, multinational 
approach.
    With the capture and arrest of El Chapo Guzman, Mexico has 
proven that they not only have the resources and capability, 
but they also demonstrated that they have the will that it 
takes to tackle the most significant and dangerous leaders of 
transnational criminal organizations.
    I want to thank you again for the opportunity to be here 
and I will be happy to answer any questions.
    [The joint prepared statement of Mr. Dinkins and Mr. Bersin 
follows:]
    Joint Prepared Statement of James A. Dinkins and Alan D. Bersin
                             April 2, 2014
                              introduction
    Good morning Chairman McCaul, Ranking Member Thompson, and 
distinguished Members of the committee. Thank you for inviting the 
Department of Homeland Security's (DHS) Office of International Affairs 
(OIA) and Immigration and Customs Enforcement (ICE) to testify on the 
future implications for drug trafficking organizations in Mexico and 
highlight the solid cooperative relationship the United States and 
Mexico have established.
              arrest of joaquin ``el chapo'' guzman loera
    First and foremost, we salute the government of Mexico for the 
February 22 capture and arrest of Joaquin ``El Chapo'' Guzman Loera, 
one of the most wanted men in the world. The Sinoloa Cartel contributed 
to the death and destruction of numerous lives across the globe. The 
President's Strategy to Combat Transnational Organized Crime identified 
Mexican drug trafficking organizations, including Sinaloa and other 
drug cartels, as a significant danger to the United States and other 
nations--we must continue our successful, bilateral, efforts to defeat 
these criminal organizations and reduce their power and influence 
within Mexico.
    During his recent trip to Mexico, Secretary Johnson relayed the 
administration's message directly to his counterparts: He congratulated 
them on this historic development; he praised the many Mexican efforts 
that resulted in the arrest; and he observed that this arrest and 
capture is emblematic of the many successes Mexico has had in the fight 
against transnational criminal organizations. As is the case with many 
complex investigations--and as Mexican officials noted--there was 
indeed U.S. and Mexican collaboration that led to the arrest. For many 
years now, U.S. and Mexican law enforcement have been working together 
to identify and arrest criminals. But let us be clear about this point, 
the arrest and capture of El Chapo was a Mexican operation and a 
Mexican success. Mexico deserves the credit. Secretary Johnson 
communicated this to his counterparts, and we would be remiss if we did 
not re-emphasize that point with you today. We are pleased with the 
level of cooperation between the government of Mexico and the United 
States Government and other departments and agencies. The United States 
and Mexico will certainly continue to work cooperatively to dismantle 
drug cartels and criminal organizations.
            engagement with mexico: more than just security
    The United States and Mexico share a historically unique 
relationship of migration, trade, and cultural exchange. The 1,969-mile 
border between the United States and Mexico is the most frequently-
crossed border in the world. Trade between the United States and Mexico 
continues to grow, totaling more than $1 billion a day, making Mexico 
the United States' third-largest trading partner.
    The United States and Mexico have strong economic ties. We are 
their largest trading partner and they are our second-largest trading 
partner. But those facts only scratch the surface of our economic and 
trading relationship because in reality we make goods together as a 
product crosses the border multiple times before completion. The 
majority of DHS programmatic efforts with Mexico are focused on 
expediting the legitimate flow of goods and people and interdicting and 
preventing the illicit flows of people, weapons, drugs, and currency, 
as well as working with Mexico and Guatemala to improve security along 
Guatemala's northern border. Mexico and the United States have built a 
solid foundation and now historic levels of cooperation are on display 
across the spectrum of both countries' governments, and the U.S.-Mexico 
border is safer, more secure, and more efficient than it has ever been.
    In the last 10 years, the United States and Mexico have 
revolutionized their security and trade relationship, achieving 
unprecedented levels of cooperation and success. The concerted 
reshaping of the U.S.-Mexico bilateral relationship, which began in 
earnest through the Merida Initiative, was deepened and memorialized by 
the Twenty-First Century Border Management Declaration in May 2010 and 
the creation of the U.S.-Mexico High-Level Economic Dialogue in May 
2013. These developments have substantially recast the strategic 
partnership between the United States and Mexico as one based on the 
assumption of shared responsibility for, and joint management of, 
common issues. These principles govern our approach to securing and 
expediting lawful flows of persons and goods across our common border 
and are embodied in a series of bilateral agreements entered into by 
the DHS and the Secretaria de Gobernacion (Secretariat of Government, 
or SEGOB) and Secretaria de Hacienda y Credito Publico (Secretariat of 
Finance and Public Credit, or SHCP).
    This transformation has been largely built on a new understanding 
of borders within the context of flows of goods and people and not just 
lines in the sand; a new bi-national approach to border management in 
which our governments jointly address issues that affect both 
countries' national and economic security; and direct, sustained, 
bilateral engagement at the most senior levels of government, including 
robust DHS engagement. Though we continue to refine bilateral plans, 
programs, and initiatives to this end--and considerable work remains to 
be done--remarkable progress has been made.
    Transnational crime is not the only shared concern which Mexico and 
the United States have an interest in addressing together. As 
highlighted by Presidents Obama and Pena Nieto and Canadian Prime 
Minister Harper at the North American Leaders Summit, our cooperative 
agenda includes facilitating the secure flow of people and goods across 
our borders, increasing economic competitiveness, and expanding 
educational and scientific exchanges. In each of these areas--trade and 
travel, security, and exchanges--Secretary Johnson expressed the desire 
of the United States to work with our counterparts throughout the 
government of Mexico and stated the intent to maintain and deepen the 
relationship between U.S. agencies and their Mexican counterparts.
    It is important to highlight the Declaration of Principles that 
Secretaries Johnson and Videgaray signed on March 20, which reaffirms 
the shared commitment of the United States and Mexico to collaborate on 
security matters and to continue to promote the economic growth and 
prosperity essential to both of our nations. Effective customs 
partnership is the linchpin in our nations' efforts to increase 
security and economic prosperity and nowhere is this more apparent than 
at our shared border. The Declaration of Principles will take us to the 
next level of cooperation, moving from a bi-lateral approach to a bi-
national approach. It is built on the principles of shared 
responsibility and joint border management which underlie our 
engagement. And it recognizes that security and facilitation are 
mutually reinforcing objectives.
    Through this arrangement, DHS and our Mexican counterpart will, 
among other things:
  <bullet> Streamline information requirements and manifest processes, 
        something we are already moving toward through President 
        Obama's Executive Order to streamline the export/import process 
        for America's businesses;
  <bullet> Deepen the integration of our trusted trader programs; and
  <bullet> Work with each other and the private sector on 
        infrastructure development and improvements at the ports of 
        entry.
                          examples of success
    There are other areas in which we are working with Mexican 
counterparts. We would like to highlight a just a few examples of 
success. This will not be a comprehensive list, but is reflective of 
the depth and breadth of the work we do with Mexico:
  <bullet> In fiscal year 2010, ICE's international partners played a 
        central role in Operation Pacific Rim. Working closely with the 
        Colombian National Police, Mexican authorities, and our 
        partners in Ecuador and Argentina, as well as the Department of 
        Justice's Federal Bureau of Investigation and Drug Enforcement 
        Administration, ICE led an investigation that spanned the globe 
        and effectively disrupted one of the most powerful and 
        sophisticated bulk cash and drug smuggling organizations in the 
        world. This transnational drug trafficking organization was 
        responsible for nearly half of the cocaine smuggled from 
        Colombia into the United States between 2003 and 2009--
        approximately 912 tons with an estimated street value of $24 
        billion. As a result of law enforcement cooperation, both 
        domestic and international, this operation, which eventually 
        spanned three continents, resulted in the capture of the top 
        leadership and other high-ranking members of the Pacific Rim 
        Cartel, 10 convictions, 21 indictments and seizures totaling 
        more than $174 million in cash, 3.8 tons of cocaine, and $179 
        million in property.
  <bullet> Customs and Border Protection (CBP) is working with Mexico's 
        Federal Police to enhance public safety in the border region 
        through continued augmentation of the Cross Border Coordination 
        Initiative, which began in April 2013. Through the Cross Border 
        Coordination Initiative, a result of the Border Violence 
        Prevention Protocols, the U.S. Border Patrol works with 
        Mexico's Federal Police to conduct coordinated patrols of our 
        shared border. These joint efforts, in cooperation with other 
        relevant law enforcement agencies, focus on the crimes of 
        criminals and organizations connected with the smuggling and/or 
        trafficking of narcotics, weapons, persons, and bulk cash, as 
        well as help to coordinate humanitarian efforts.
  <bullet> One of the most effective methods for dismantling TCOs is to 
        attack the criminal proceeds that are the lifeblood of their 
        operations. DHS has worked closely with Mexican counterparts 
        through the ICE Homeland Security Investigations (HSI)-led 
        National Bulk Cash Smuggling Center (BCSC), and the National 
        Targeting Center--Investigations Division (NTC-I) created in 
        December 2013 in collaboration with CBP. Since its inception in 
        August 2009, the BCSC has initiated more than 700 
        investigations, and has played an active role in more than 550 
        criminal arrests, 360 indictments, and 260 convictions. The 
        increased HSI presence at the NTC, which includes HSI's Trade 
        Transparency Unit, enhances the joint mission of CBP and HSI to 
        enforce applicable laws, develop critical intelligence, 
        strengthen relationships with domestic and international 
        partners, and provide law enforcement support during National 
        emergencies.
  <bullet> In April 2013, DHS signed an agreement with the government 
        of Mexico creating the framework for the Interior Repatriation 
        Initiative. This initiative is designed to reduce recidivism 
        and border violence by returning Mexican nationals with a 
        criminal history to the interior of Mexico, where there is a 
        higher likelihood that they will reintegrate themselves back 
        into their communities, rather than continue their association 
        with criminal organizations on the border. DHS is working with 
        Mexico to explore additional options to refine and modernize 
        our binational approach to repatriation. Those conversations 
        are only just beginning but we are optimistic that the outcome 
        of the dialogue will be a better, more effective, and more 
        efficient repatriation and re-integration process.
  <bullet> And we are working with our Mexican counterparts to leverage 
        science and technology to expedite legitimate commerce and 
        increase supply chain security. Specifically, we are 
        strengthening our trusted trader programs to include 
        recognition of reusable electronic conveyance security devices 
        as instruments of trade. DHS and Mexican counterparts plan to 
        form a task force to demonstrate the technology and to address 
        any policy and regulation requirements for implementation.
                               conclusion
    Strengthening homeland security includes a significant 
international dimension. To most effectively carry out DHS's core 
missions--including preventing terrorism, securing our borders, and 
protecting cyberspace--we must partner with countries around the world. 
Through international collaboration--including specifically our work 
with Mexico--we not only enhance our ability to prevent terrorism and 
transnational crime, but we also leverage the resources of our 
international partners to more efficiently and cost-effectively secure 
global trade and travel. The successes in our partnership with Mexico 
highlight the importance of DHS's international engagement.
    Thank you for the opportunity to testify today. We welcome the 
opportunity to address your questions.

    Chairman McCaul. Thank you, Mr. Dinkins.
    The Chairman now recognizes Mr. Feeley for 5 minutes.

   STATEMENT OF JOHN D. FEELEY, PRINCIPAL DEPUTY, BUREAU OF 
      WESTERN HEMISPHERE AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Feeley. Mr. Chairman, Ranking Member Thompson, Members 
of the committee, since we first met when you visited Mexico, 
Mr. Chairman, I have been grateful for your and this 
committee's constant interest in and focus on the very 
important issue of U.S.-Mexico security cooperation. Your 
personal knowledge of the border and your own previous 
experience as a prosecutor have made our conversations rich and 
productive, and they have contributed to my better 
understanding of the domestic dynamics that affect that 
cooperation.
    As you are aware, Mr. Chairman, it has been my privilege to 
serve at our embassy in Mexico on two occasions: First in the 
days and months after 9/11, when we were forced to reexamine 
how neighbors must confront the horrors of terrorism in 
democratic societies; and most recently from 2009 to 2012, when 
we and our Mexican partners truly transformed our 
relationship--our security and our commercial relationships in 
the service of the American and Mexican people.
    In my current position as the Western Hemisphere Bureau 
hemispheric security coordinator I have remained focused on the 
linchpin that is our work in Mexico in protecting the American 
people from the threat of transnational organized crime.
    I must also thank the U.S. Congress, and again, this 
committee in particular, for its consistent, bipartisan, strong 
support of the U.S.-Mexico relationship in general and the 
Merida Initiative in particular. Merida is a success story, and 
the Congress' commitment to Merida has been a cornerstone of 
that success.
    Begun under the Bush-Calderon administrations and 
reaffirmed and now strengthened in the Obama-Pena Nieto 
administrations, the United States and Mexico coordinate and 
cooperate to ensure our mutual security in ways, quite frankly, 
unimaginable to me when I reported to Mexico over a decade ago. 
This commitment to shared security goals that incorporates 
respect for human rights--it transcends political parties and 
extends across both governments' interagency communities.
    President Obama's visit to Mexico in February for the North 
American Leaders' Summit and bilateral meetings with President 
Pena Nieto marked his fifth trip to Mexico as President and it 
highlights the importance of our relationship with Mexico. 
While our bilateral agenda includes a wide array of issues--
trade and commercial interests, our shared environment, 
educational exchanges, and efforts to make us a more 
competitive partnership in a globalized world--security 
cooperation has always been a central element of the agenda on 
each of those trips.
    I am pleased to report to you, Mr. Chairman, and this 
committee that it is working.
    The recent arrest--without a shot fired--of the world's 
most famous drug trafficker, co-leader of the Sinaloa Cartel, 
Joaquin El Chapo Guzman Loera, represents a milestone in that 
cooperation. Not an end-state, not a final victory, but a clear 
indicator that through cooperation that respects Mexico's and 
our sovereignty and is conducted in a spirit of trust and 
shared enterprise, no individual or criminal network is immune 
from the reach of the law.
    We congratulate the Mexican people and their government on 
the capture of El Chapo Guzman. This was a Mexican operation 
conducted by Mexican marines and supported by U.S. law 
enforcement agencies--among them the marshals, DEA, FBI, and my 
colleagues at HSI. This is how it is supposed to work.
    While the Merida Initiative doesn't fund law enforcement 
operations, it does build capacity; it does teach agencies how 
to work in a task force environment; it does help Mexico 
produce skilled analysts, investigators, prosecutors, cops, and 
all the other public servants necessary to implement and 
strengthen the rule of law in Mexico. This, Mr. Chairman, makes 
us safer here at home.
    At the end of the day, Mr. Chairman, U.S.-provided 
equipment and hardware is not the panacea for Mexico's still-
difficult struggle against organized crime and drug 
traffickers. What is transforming Mexico's rule of law and 
making its citizens safer is the development of the human 
capital of its educational, police, justice, penitentiary, and 
broader governmental institutions.
    If I have learned anything in working with the Colombians 
in the 1990s, the Central Americans and Mexicans over this past 
decade, it is that cartels, mafias, transnational organized 
crimes are parasitical organizations. They need society so that 
they can obscure their illegal activity and sell their illicit 
goods and services.
    They crave weak government institutions they can suborn and 
intimidate. Most of all, they seek to establish conditions of 
impunity that allow them to stay in business as they cross 
borders freely to exploit the weakest links wherever they can 
find them.
    In this, the Mexican cartels are no different than the 
Colombian criminal bands or the U.S.-based Cosa Nostra or the 
Japanese yakuza. They are made up of delinquent individuals who 
become empowered through the accumulation of illicit wealth, 
the corruption of law enforcement and judicial institutions, 
and the fear that they sow among ordinary, law-abiding 
citizens.
    But I am convinced that we are stronger--and by ``we'' I 
mean the Mexican and American teachers, community activists, 
substance use disorder counselors, the beat cops, the law 
enforcement agents, the prosecutors, and the legislators, and 
all of the others who collaborate in our binational effort to 
take away the cartels' ill-gotten gains, to take away their 
markets, to investigate them, arrest them, prosecute them, and, 
when convicted, to put them behind bars.
    No one from the administration is claiming victory or 
spiking the ball here. But we have a powerful, tested formula 
to combat the cartels.
    We must constantly improve upon that formula through 
academic and practical study, through operational vigilance and 
information sharing. But it will always contain as its central 
core empowered societies, well-trained and incorruptible public 
servants, and mutual respect and an ironclad commitment to 
cooperate across borders.
    I thank you again for the opportunity to appear this 
morning and I look forward to our conversation and your 
questions.
    [The prepared statement of Mr. Feeley follows:]
                  Prepared Statement of John D. Feeley
                             April 2, 2014
    Mr. Chairman, Ranking Member Thompson, and Members of the 
committee: Since we first met when you visited Mexico, Mr. Chairman, I 
have been grateful for your and this committee's constant interest in 
and focus on the very important issue of U.S.-Mexico security 
cooperation. Your personal knowledge of the border and your own 
previous experience as a prosecutor have made our conversations rich 
and productive and have contributed to my better understanding of 
domestic dynamics that affect that cooperation. As you are aware, Mr. 
Chairman, it has been my privilege to serve at our embassy in Mexico on 
two occasions, first in the days and months after 9/11 when we were 
forced to re-examine how neighbors must confront the horrors of 
terrorism in democratic societies; and most recently from 2009-12, when 
we and our Mexican partners truly transformed our security and 
commercial relationships in service of the American and Mexican 
peoples. In my current position as the Western Hemisphere Bureau's 
Hemispheric Citizen Security Coordinator, I have remained focused on 
the linchpin that is our work with Mexico in protecting the American 
people from the threat of transnational organized crime.
    I must also thank the U.S. Congress, and again, this committee in 
particular, for its consistent, bipartisan, strong support of the U.S.-
Mexico relationship in general, and the Merida Initiative in 
particular. Merida is a success story, and the Congress' commitment to 
Merida has been a cornerstone of that success.
    Begun under the Bush-Calderon administrations, and reaffirmed and 
strengthened now in the Obama-Pena Nieto administrations, the United 
States and Mexico coordinate and cooperate to ensure our mutual 
security in ways unimaginable when I first reported for duty in Mexico 
City over a decade ago. This commitment to shared security goals that 
incorporates respect for human rights transcends political parties and 
extends across both governments' interagency communities.
    President Obama's visit to Mexico in February for the North 
American Leaders' Summit and bilateral meetings with President Pena 
Nieto--his fifth trip to Mexico as President--highlights the importance 
of our relationship with Mexico. While our bilateral agenda covers a 
wide array of issues--trade and commercial relationships, our shared 
environment, educational exchanges, and efforts to make us a more 
competitive partnership in a globalized world--security cooperation has 
always been a central element of the agenda on each of those trips, and 
I am pleased to report to you that it is working.
    The recent arrest--without a shot fired--of the world's most famous 
drug trafficker, coleader of the Sinaloa Cartel, Joaquin ``El Chapo'' 
Guzman Loera, represents a milestone in that cooperation. Not an end-
state or final victory, but a clear indicator that through cooperation 
that respects Mexico's sovereignty and is conducted in a spirit of 
trust and shared enterprise, no individual or criminal network is 
immune from the reach of the law.
    We congratulate the Mexican people and their government on the 
capture of ``El Chapo'' Guzman. This was a Mexican operation, conducted 
by Mexican Marines, and supported by multiple U.S. law enforcement 
agencies, among them the Marshals, DEA, HSI, and the FBI. This is how 
it is supposed to work.
    If I have learned anything working with the Colombians in the 
1990s, the Central Americans and the Mexicans in the last decade, it is 
that cartels, mafias, organized criminals are parasitical 
organizations. They need society so that they can obscure their illegal 
activity and sell their illicit goods. They crave weak government 
institutions they can suborn and intimidate. Most of all they seek to 
establish conditions of impunity that allow them to stay in business, 
as they cross borders freely to exploit the weakest links wherever they 
can find them. In this, the Mexican cartels are no different than the 
Colombian Criminal Bands, or the U.S.-based La Cosa Nostra families, or 
the Japanese Yakuza. They are made up of delinquent individuals who 
become empowered through the accumulation of illicit wealth, the 
corruption of law enforcement and judicial institutions, and the fear 
they sow among law-abiding citizens.
    But I am convinced we are stronger. And by we, I mean the Mexican 
and American teachers, community activists, substance use disorder 
counselors, beat cops, law enforcement agents, prosecutors, and all the 
others who collaborate in our binational effort to take away the 
cartels' markets, strip them of their ill-gotten gains, investigate, 
arrest, and prosecute them--and when convicted, put them behind bars.
    No one from the administration is claiming victory or spiking the 
ball here. But we have a powerful tested formula to combat the cartels. 
We must constantly improve upon that formula through constant study, 
vigilance, and information sharing. But it will always contain as its 
central core empowered societies, well-trained and incorruptible public 
servants, and international respect and commitment to cooperate.
    While the Merida Initiative does not fund law enforcement 
operations, it does build capacity. It does teach agencies how to work 
in a task force environment. It does help Mexico produce skilled 
analysts, investigators, prosecutors, cops and all the other public 
servants necessary to implement and strengthen the rule of law in 
Mexico. And this makes us safer here at home, Mr. Chairman.
                      pena nieto security strategy
    In August 2013, President Pena Nieto presented the framework of his 
10-point security strategy which includes:
  <bullet> Crime prevention and social reconstruction;
  <bullet> Effective criminal justice;
  <bullet> Police professionalization;
  <bullet> Transformation of the prison system;
  <bullet> Promotion and coordination of citizen participation;
  <bullet> International cooperation on security;
  <bullet> Transparent statistics on crime rates;
  <bullet> Coordination among government authorities;
  <bullet> Regionalization to focus efforts; and
  <bullet> Strengthening of intelligence to better combat crime.
    President Pena Nieto's strategy emphasizes coordination and 
consultation with State and regional governments as key to its security 
strategy. And we couldn't agree more. As part of the effort to enhance 
the transition to a more effective adversarial oral justice system, 
President Pena Nieto promoted the federal legislation to create a 
uniform criminal procedures code, passed in February 2014. His strategy 
also focuses on police professionalization by seeking to create a 
career professional service, consolidating police certification and 
vetting, elaborating protocols for police action, and creating a 
national training plan for police.
    President Pena Nieto has stated there are no easy solutions or 
``short cuts'' to reduce violence in the short term, instead 
emphasizing long-term goals such as the rule of law and trust in 
judicial institutions. In February 2013, President Pena Nieto launched 
a national multi-tiered crime prevention plan--known as Mexico's 
National Crime and Violence Prevention Program, led by Roberto Campa--
which will include programs to combat poverty, recover public spaces, 
and increase youth employment. President Pena Nieto has made crime 
prevention and judicial reform central aspects of his political agenda 
and has emphasized a focus on reducing kidnapping, homicide, and 
extortion.
                           merida initiative
    Our security cooperation has been expanding and evolving since the 
Merida Initiative was launched in 2008. The Merida Initiative, above 
all, a rule of law strategy, in which confronting the cartels is a 
necessary but not wholly sufficient element of our joint endeavor. It 
is based on the recognition that our countries share responsibility for 
combating transnational criminal networks and protecting our citizens 
from the crime, corruption, and violence they generate. We have based 
this initiative on mutual respect, and it reflects our understanding of 
the tremendous benefits derived from this collaboration. We have forged 
strong partnerships to improve civilian security in affected areas to 
fight drug trafficking, organized crime, corruption, illicit arms 
trafficking, money laundering, and demand for drugs on both sides of 
the border.
    The four Merida pillars that the United States and Mexico agreed to 
in 2010, and that presidents Obama and Pena Nieto confirmed during 
President Obama's May 2013 trip to Mexico City, remain our flexible 
organizing construct:
    (1) Disrupting the operational capacity of organized criminal 
        groups;
    (2) Institutionalizing reforms to sustain rule of law and respect 
        for human rights;
    (3) Creating a 21st Century border; and
    (4) Building strong and resilient communities.
    Under these pillars, we are accelerating our efforts to support 
more capable institutions--especially police, justice systems, and 
civil society organizations; expanding our border focus beyond 
interdiction of contraband to include facilitation of legitimate trade 
and travel; and cooperating in building strong communities resistant to 
the influence of organized crime, with a focus on the youth population.
    Our success under the Merida Initiative is due in large part to the 
commitment and brave efforts of the Mexican government and the Mexican 
people to combat transnational criminal organizations. Our Mexican 
partners have spent at least $10 to every $1 that we have contributed 
to our Merida goals in Mexico. That is as it should be; however, the 
U.S. contribution--none of it in cash and none of it lethal--is vitally 
important.
    Our assistance has provided crucial support to the Mexican 
government in its efforts to build the capacity of its rule of law 
institutions and advance justice sector reforms, while enhancing the 
bilateral relationship and the extent of cooperation between the U.S. 
and Mexican governments through provisions of equipment, technical 
assistance, and training. A variety of U.S. Federal agencies--including 
the Department of State, USAID, the Department of Homeland Security, 
the Department of Justice, and the Department of Defense--are working 
with the Mexican government to implement Merida projects.
    By 2011, we began to move away from big-ticket equipment--except 
for border security--and toward intensive technical assistance and 
training activities that further Mexican capacity to uphold the rule of 
law, respect human rights, strengthen institutions, enhance civil 
society participation, and secure borders. We continue to expand this 
support to the State and municipal levels in several program areas.
                           merida programming
    Under Merida, we have provided approximately $1.2 billion in 
equipment, training, and capacity building. At the federal level, 
Merida has trained nearly 19,000 federal law enforcement officers, 
which includes more than 4,400 federal Police investigators deployed 
throughout Mexico. At the state level, the State Department's Bureau of 
International Narcotics and Law Enforcement (INL) has supported 
Accredited State Police Units (PEAs). We have strengthened police 
academies in the states of Chihuahua, Sonora, Nuevo Leon, and Puebla by 
providing equipment and training materials, enabling them to serve as 
the backbone for training programs and to conduct regional training. 
During 2013, INL provided training to approximately 2,000 state and 
local law enforcement officers from throughout the country in such 
topics as officer safety and survival, criminal investigations, crime 
scene preservations, law enforcement intelligence, anti-gang tactics, 
anti-drug trafficking, and gender-based violence. INL continues to 
expand its state-level law enforcement training program, focused on 
areas such as anti-kidnapping, complementing President Pena Nieto's 
recently-announced national 10-point anti-kidnapping strategy.
    We also continue to build on the success of several on-going 
programs. For example, Mexico's federal corrections system is now a 
recognized international leader in corrections reform, with eight 
federal facilities and six state facilities certified by the 
independent American Correctional Association (ACA). Mexico has used 
its success in reforming the corrections systems at the federal level 
as a launching point for state-level reform--beginning in Chihuahua--
primarily by providing basic and advanced correctional training in an 
effort to achieve ACA accreditation. We will continue to support Mexico 
in assessing its state facilities and to undertake similar reforms at 
the state level.
    The United States will continue to offer capacity-building support 
to Mexican security agencies involved in border security, further 
enhancing their ability to interdict illicit narcotics, arms, and 
money. We are prepared to support Mexico in their efforts to strengthen 
the Southern Border, an area the Pena Nieto administration has 
prioritized, through equipment donation and border management training. 
We are working with Mexico's Central American partners to implement 
programs designed to build regional capacity to share information and 
take action to dismantle transnational gangs, interdict the flow of 
methamphetamine precursors, investigate international child exploiters, 
and disrupt cross-border illicit financial flows.
    On rule of law, we will focus on supporting Mexico in its 
transition to an accusatorial justice system by providing robust 
training to the Attorney General's Office and Mexican law schools, 
equipping courtrooms with necessary technology for oral trials under 
the new justice system, and helping to implement the recently-approved 
federal code. Mexico's ambitious effort to reform its justice system by 
2016 requires sustained focus and resources.
    The Mexican government strongly advocated for not only the 
continuation, but the expansion of Merida's drug court and drug demand 
reduction programs. Merida funds have supported the development of 
Mexican clinical trial networks and funded a comprehensive national 
survey of inpatient substance use disorder treatment facilities in 
Mexico and developed a curriculum which has been used to train 600 
counselors from six states. The Mexican government is eager to stand 
up, with the help of the Merida Initiative, additional drug courts, 
which use treatment and community support as an alternative to 
incarceration, throughout the country. Empirical research in the United 
States and elsewhere has shown that these courts reduce recidivism and 
save money.
    The U.S. Agency for International Development (USAID) has supported 
the Mexican government in developing and implementing crime and 
violence prevention strategies in nine communities in target areas in 
the states of Chihuahua, Nuevo Leon, and Baja California, each 
significantly affected by drug-related crime and violence. We can take 
pride in that--while recognizing the far-broader efforts Mexico is 
itself taking. President Pena Nieto is making this sort of engagement a 
cornerstone of Mexico's national crime prevention strategy.
    USAID has also been working closely with the Secretariat of 
Interior (SEGOB) on crime prevention and human rights programs. USAID 
has engaged with Under Secretary for Crime Prevention Campa's team on 
potential new crime prevention activities that we could support through 
Merida, which includes new activities focused on at-risk youth, public 
opinion polling, and technical assistance on broad crime prevention 
policy. SEGOB and USAID are discussing a geographical expansion of 
crime and violence prevention activities, while remaining focused on 
the testing and replication of such models by the Mexican government 
and other nongovernmental partners. USAID has also provided direct 
technical assistance to SEGOB on a human rights assessment that is 
expected to form the foundation of Mexico's national human rights 
strategy.
    USAID and INL have been working closely with the new Technical 
Secretary for Criminal Justice Reform Implementation and her team 
through existing projects focused on institution strengthening, 
legislative reform, capacity building, civic engagement, and support to 
law schools and bar associations.
    The U.S. Government promotes respect for human rights through our 
Merida Initiative and other programming in Mexico. INL trains Mexican 
state and municipal police officers and state prosecutors on gender-
based violence. INL also works to strengthen Internal Affairs units 
throughout the Mexican government with special emphasis on the police. 
INL has supported a Department of Justice project to provide training 
and technical assistance to law enforcement, prosecutors, and judges to 
combat violence against women and children. The Department of Defense 
includes modules on human rights in all mobile training events 
conducted through USNORTHCOM. This training addresses issues such as 
torture and the appropriate use of lethal force. The Department of 
Defense also brings Mexican officers to the United States for 
specialized training on human rights and uses staff Judge Advocates to 
teach classes in Mexico on human rights and the Law of Armed Conflict. 
In 2012, USAID launched a Master's certificate program in human rights 
and security, which was completed by 254 members of the Mexican Federal 
Police. USAID also began an on-line certificate course on human rights 
and public security, through which 401 police investigators, from the 
federal level and the states of Nuevo Leon and Puebla, gained key 
knowledge and skills on international and national human rights 
standards, victims' assistance, principles of equality and non-
discrimination, prevention of torture, and trafficking in persons.
                               way ahead
    President Pena Nieto and his team have consistently made clear to 
us their interest in continuing our close collaboration on security 
issues and have stated that it intends to give particular emphasis to 
crime prevention and rule of law. The United States fully supports this 
further refinement of our joint strategic partnership, and we continue 
our on-going transition from major equipment purchases toward training 
and capacity building and an expansion from assistance solely for 
federal institutions to an increasing emphasis on state and local 
government. At the same time, the sharing of intelligence and law 
enforcement cooperation continue apace. The take-down of significant 
cartel leaders in recent months, most notably the capture of the 
notorious ``Chapo'' Guzman in February, underscores the Mexican 
government's commitment to confront transnational criminal 
organizations as it works to reduce criminal violence and enhance 
citizen security.
    In August 2013, the United States and Mexican governments confirmed 
our shared priorities for Merida programming. They are: Justice sector 
reform, efforts against money laundering, police and corrections 
professionalization at the federal and state level, border security 
both north and south, and piloting approaches to address root causes of 
violence.
    Since then, the United States and Mexico vetted and approved more 
than $309 million in 63 new project proposals under the Merida 
Initiative. These projects include police training, support for vetting 
and internal affairs for the police and federal agencies, IT equipment 
to support oral hearings under the new criminal justice system, 
forensics, corrections, training for prosecutors and investigators, 
expanding drug treatment courts, and continued support to Mexico's 
National Institute of Migration.
    Over the past year, Mexico enacted and has begun to implement 
important anti-money laundering laws which, if enforced aggressively, 
will give the Mexican government significant new tools to disrupt the 
operational capacity of organized criminal groups. This offers an 
opportunity for the United States and Mexico to enhance our partnership 
by sharing newly available information, and by using this information 
in a coordinated fashion to further degrade the capabilities of the 
illicit finance networks of criminal organizations.
    The United States and Mexico, working together, have transformed 
bilateral engagement over the last 10 years, and the Merida partnership 
has been an important component of this broader evolution in the 
relationship. Mexican authorities agree that our cooperation must 
continue and that the Merida Initiative provides a comprehensive, 
flexible framework through which our partnership can move forward to 
the benefit of both Americans and Mexicans.

    Chairman McCaul. Thank you, Mr. Feeley.
    The Chairman now recognizes Mr. Wilson for 5 minutes.

 STATEMENT OF CHRISTOPHER WILSON, ASSOCIATE, MEXICO INSTITUTE, 
        WOODROW WILSON INTERNATIONAL CENTER FOR SCHOLARS

    Mr. Wilson. Chairman McCaul, Ranking Member Thompson, 
Members of the Committee on Homeland Security, thank you for 
this opportunity to join such a distinguished panel to address 
the important issue of U.S.-Mexico cooperation to weaken 
organized crime and strengthen public security.
    As Members of this committee know, before dawn on February 
22 the Mexican navy arrested Joaquin El Chapo Guzman, head of 
the Sinaloa Cartel, which is the most powerful of the Mexico-
based transnational organized crime groups. After having 
escaped from a high-security prison in 2001, Guzman had taken 
on a semi-mythical status and many Mexicans believe he was too 
powerful to ever be captured again.
    Because of this, his capture has tremendous symbolic value. 
The Mexican government has made a powerful statement that no 
one involved in drug trafficking and organized crime is above 
the law.
    Through the Merida Initiative, the United States has 
committed more than $2 billion to support Mexican security 
forces, criminal justice institutions, border management, and 
crime prevention. Probably more important, though, than the 
actual aid package that comprised the Merida Initiative, was 
the signal from the two presidents that their military, 
intelligence, and law enforcement agencies develop stronger 
relationships.
    The Merida Initiative represented a major shift in the 
framework for U.S.-Mexico--for the U.S.-Mexico security 
relationship. Attitudes of mutual recrimination, with the 
United States faulting Mexico for the northbound flow of drugs 
and Mexico faulting the United States for the southbound flow 
of illicit money and arms, gave way to an approach based on 
shared responsibility for the transnational challenges posed by 
drug trafficking and organized crime.
    In this context, the 2012 election of Mexican President 
Enrique Pena Nieto, from political party the Institutional 
Revolutionary Party, or PRI, traditionally aligned with a more 
limited approach to international engagement, created a degree 
of uncertainty and apprehension among many U.S. policymakers 
regarding the future of security cooperation. For some, those 
fears were stoked by the early move to create a single window 
for information sharing, meaning that U.S. officials would need 
to direct communications on security matters through Mexico's 
Interior Ministry rather than having on-going direct contact 
with officials throughout Mexico's security apparatus.
    Other actions furthered what was a trend toward 
centralization, a characteristic of the traditional PRI 
governing style. For example, the Ministry of Public Security, 
which runs Mexico's federal police, was eliminated as an 
independent ministry and placed under the control of the 
Interior Ministry.
    Though far from the first sign of on-going engagement with 
the United States and the new administration, the cooperative 
binational effort to track down and arrest Joaquin Guzman is 
probably the strongest. It represents the culmination of years 
of effort, but it importantly shows the new mechanisms put in 
place by the Mexican government to manage intelligence sharing 
and cooperation at the operational level are functioning 
sufficiently well to capture Mexico's most wanted criminal.
    Day-to-day engagement may be limited, but vitally important 
cooperation remains strong.
    The ability of U.S. and Mexican governments have shown to 
cooperatively--that the U.S. and Mexican governments have shown 
to cooperatively generate successes bodes well for the future 
of bilateral cooperation. Now that things are settling into a 
new routine on the intelligence-sharing and law enforcement 
cooperation side, perhaps there is an important opportunity to 
strengthen engagement on what is known as pillar four of the 
Merida Initiative, which is building strong and resilient 
communities.
    To a certain extent this may already be underway. After a 
long pause in the binational process to create and approve 
Merida Initiative projects during the first year of the Mexican 
administration in 2013, a number of new projects have been 
agreed upon by the two governments in recent months. Such an 
approach meshes well with the increased focus from the Mexican 
government on prevention and the strengthening of civil 
society, as exemplified by the creation of a new under 
secretary for crime prevention and citizen participation in 
Mexico's Interior Ministry.
    The Wilson Center recently completed a multi-year research 
project on the role of civil society and the private sector in 
addressing public security challenges, launching a book 
entitled ``Building Resilient Communities in Mexico: Civic 
Responses to Crime and Violence.'' Our research shows that not 
only must the United States and Mexican governments work 
together to strengthen public security, they must also build 
trust and engage with society so that all parties are working 
in a coordinated and cooperative way.
    The biggest remaining challenges lie at the subnational 
level, where governance and police capacity remain uneven and 
in many cases quite weak. States like Baja California, 
Chihuahua, and Nuevo Leon have seen their rule of law 
institutions significantly strengthened over the past several 
years, but states like Tamaulipas, Michoacan, Veracruz, and 
Guerrero still face major challenges.
    The Merida Initiative remains an important vehicle to 
identify and support trustworthy partners in subnational 
government and civil society.
    Additionally, U.S. engagement with Mexico across a broad 
range of topics, especially trade promotion and efforts to 
strengthen North American economic competitiveness, are a vital 
part of the broader U.S.-Mexico partnership. The Mexican 
government understandably does not want security cooperation to 
dominate the bilateral agenda, so the strength of security 
cooperation is in part determined by the strength of engagement 
on other topics. If we boost cooperation on economic issues, 
that creates space for a greater amount of security cooperation 
without it overwhelming the agenda.
    In conclusion, there is currently strong cooperation 
between the United States and Mexico on issues of organized 
crime, drug trafficking, and public security. Nonetheless, 
there is both a need for and space to further strengthen 
engagement in the areas of institution building and crime 
prevention.
    Thank you. I would like to thank the committee for the time 
today.
    [The prepared statement of Mr. Wilson follows:]
                Prepared Statement of Christopher Wilson
                             April 2, 2014
    Chairman McCaul, Ranking Member Thompson, Members of the Committee 
on Homeland Security: Thank you for this opportunity to join such a 
distinguished panel to address the important issue of U.S.-Mexico 
cooperation to weaken organized crime and strengthen public security.
                     the capture of joaquin guzman
    As the members of this committee know, before dawn on February 22, 
the Mexican Navy arrested Joaquin ``El Chapo'' Guzman, head of the 
Sinaloa organized crime group, which is the most powerful of the 
Mexico-based transnational organized crime groups. After having escaped 
from a high-security prison in 2001, Guzman had taken on a semi-
mythical status, and many Mexicans believed he was too powerful to ever 
be captured again.
    Because of this, his capture has tremendous symbolic value. The 
Mexican government has made a powerful statement that no one involved 
in drug trafficking and organized crime is above the law. By creating 
an expectation that those involved in organized crime will be held 
responsible for the lives they ruin, this event will hopefully deter 
youth, in both Mexico and the United States, from considering a life of 
crime.
           the evolution of u.s.-mexico security cooperation
    In 2007, Mexican President Felipe Calderon met with President 
George W. Bush in Merida, Mexico, and agreed to greatly increase U.S.-
Mexico cooperation in the hemispheric fight against drug trafficking. 
Through the ensuing agreement, known as the Merida Initiative, the 
United States has committed more than $2 billion to support Mexican 
security forces, criminal justice institutions, border management, and 
crime prevention. Probably more important than the actual aid package 
that comprised the Merida Initiative, though, was the signal from the 
two presidents for their military, intelligence, and law enforcement 
agencies to develop stronger relationships. The Merida Initiative 
evolved following the election of President Barack Obama, and the close 
working relationship between the two governments deepened.
    The Merida Initiative represented a major shift in the framework 
for the U.S.-Mexico security relationship. Attitudes of mutual 
recrimination, with the United States faulting Mexico for the 
northbound flow of drugs and Mexico faulting the United States for the 
southbound flow of illicit money and arms, gave way to an approach 
based on shared responsibility for the transnational challenges posed 
by drug trafficking and organized crime.
    In this context, the 2012 election of Mexican President Enrique 
Pena Nieto, from a political party (Institutional Revolutionary Party, 
PRI) traditionally aligned with a more limited approach to 
international engagement, created a degree of uncertainty and 
apprehension among many U.S. policymakers regarding the future of 
security cooperation. For some, those fears were stoked by the early 
move to create a single ``window'' for information sharing, meaning 
that U.S. officials would need to direct communications on security 
matters through Mexico's Interior Ministry rather than having on-going 
direct contact with officials throughout Mexico's security apparatus. 
Other actions furthered what was a trend toward centralization, a 
characteristic of the traditional PRI party governing style. For 
example, the Ministry of Public Security, which runs Mexico's Federal 
Police, was eliminated as an independent ministry and placed under the 
control of the Interior Ministry. In fact, just days before the capture 
of Guzman, the Washington Post published an article entitled, ``Mexico 
law-enforcement partnership grows more thorny for U.S.,'' describing 
the ``pause'' in cooperation and rewriting of the rules encountered by 
many U.S. officials as they engaged with Mexico on security 
cooperation.
    Though far from the first sign of on-going engagement with the 
United States in the new administration, the cooperative binational 
effort to track down and arrest Joaquin Guzman is probably the 
strongest. It represents the culmination of years of effort, but 
importantly it shows that the new mechanisms put in place by the 
Mexican government to manage intelligence sharing and cooperation at 
the operational level are functioning sufficiently well to capture 
Mexico's most-wanted criminal. Day-to-day engagement may be limited, 
but vitally important cooperation remains strong.
    The ability the U.S. and Mexican governments have shown to 
cooperatively generate successes bodes well for the future of bilateral 
cooperation. Now that things are settling into a new routine on the 
intelligence-sharing and law enforcement cooperation side of 
cooperation, perhaps there is an opportunity to strengthen engagement 
on what is known as pillar four of the Merida Initiative, building 
strong and resilient communities. To a certain extent this may already 
be underway. After a long pause in the binational process to create and 
approve Merida Initiative projects during the first year of the Mexican 
administration in 2013, a number of new projects have been agreed upon 
by the two governments in recent months. Such an approach meshes well 
with the increased focus from the Mexican government on prevention and 
the strengthening of civil society, as exemplified by the creation of a 
new under secretary for crime prevention and citizen participation 
within the Interior Ministry.
    The Wilson Center recently completed a multi-year research project 
on the role of civil society and the private sector in addressing 
public security challenges, launching a book, Building Resilient 
Communities in Mexico: Civic Responses to Crime and Violence (Wilson 
Center and Justice in Mexico Project, 2014). Our research shows that 
not only must the United States and Mexican governments work together 
to strengthen public security, they must also build trust and engage 
with society so that all parties are working in coordinated and 
cooperative ways. The biggest remaining challenges lie at the 
subnational level, where governance and police capacity remain uneven 
and in many cases quite weak. States like Baja California, Chihuahua, 
and Nuevo Leon have seen their rule of law institutions significantly 
strengthened over the past several years, but states like Tamaulipas, 
Michoacan, Veracruz, and Guerrero still face major challenges. The 
Merida Initiative remains an important vehicle to identify and support 
trustworthy partners in subnational government and civil society.
    Additionally, U.S. engagement with Mexico across a broad range of 
topics, especially trade promotion and efforts to strengthen North 
American economic competitiveness, are a vital part of the broader 
U.S.-Mexico partnership. The Mexican government understandably does not 
want security cooperation to dominate the bilateral agenda, so the 
strength of security cooperation is in part determined by the strength 
of engagement on other topics. If we boost cooperation on economic 
issues, that creates space for a greater amount of security cooperation 
without it overwhelming the agenda.
    Similarly, the more the United States can show it is taking 
seriously its commitments to address issues of drug consumption, money 
laundering, and weapons trafficking, the more opportunities will emerge 
for cooperation in Mexico. To advance within the framework of shared 
responsibility outlined in the Merida Initiative, actions must be taken 
to counter organized crime and drug trafficking in both Mexico and the 
United States.
          looking forward: the implications of guzman's arrest
    The most important implication of the capture of Joaquin Guzman is 
straightforward. He has already been convicted of drug trafficking in 
Mexico and has allegedly been directly or indirectly been involved in a 
large part of the organized crime related violence occurring throughout 
many states in Mexico. He deserves to be in jail, and putting him there 
helps consolidate the rule of law and accountability in Mexico.
    But however important his capture, it is not the end of anything. 
Drug trafficking will continue. Indeed, past arrests of high-level drug 
traffickers have led to no discernable decrease in the flow of drugs 
into the United States. Violence will continue. The number of homicides 
in Mexico has declined since its peak in 2011, but the homicide rate is 
still approximately double what it was 10 years ago, and the rise of 
citizen vigilante groups in states like Michoacan and Guerrero 
demonstrate that the Mexican state lacks the capacity to adequately 
respond to public security challenges in the entirety of its territory.
    The capture of Joaquin Guzman should be celebrated, but there 
exists the possibility that his arrest fuels greater violence. This 
could occur as the result of further fragmentation within the Sinaloa 
organized crime group, which is already comprised of various factions. 
In the past, internal disputes have led to violent divisions, as was 
the case when the Beltran Leyva brothers broke away from the Sinaloa 
organized crime group. Similarly, there exists the possibility that 
rival criminal groups could seek to take advantage of the transition in 
the Sinaloa organization and fight for control of drug trafficking 
corridors currently under Sinaloa's control.
    It is too early to judge the impact of Guzman's capture on the 
Sinaloa organized crime group or the dynamic among organized crime 
groups in Mexico, but we should remain vigilant. To do so, we will need 
to continue to work closely with Mexican authorities to both counter 
organized crime and build the foundations of resilient communities 
throughout Mexico.
    In conclusion, there is currently strong cooperation between the 
United States and Mexico on issues of organized crime, drug 
trafficking, and public security. Nonetheless, there is both a need for 
and space to further strengthen engagement in the areas of institution 
building and crime prevention.
    I would like to thank the committee once again for the opportunity 
to speak with you today.

    Chairman McCaul. Thank you, Mr. Wilson.
    Chairman now recognizes Mr. Bersin for 5 minutes.

      STATEMENT OF ALAN D. BERSIN, ASSISTANT SECRETARY OF 
 INTERNATIONAL AFFAIRS AND CHIEF DIPLOMATIC OFFICER, OFFICE OF 
  INTERNATIONAL AFFAIRS, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Bersin. Thank you, Mr. Chairman, Ranking Member 
Thompson, distinguished Members of the committee. We appreciate 
very much your holding this hearing to examine the implications 
for drug trafficking organizations in Mexico, the arrest of 
Chapo Guzman, and also to provide an opportunity to highlight 
the really revolutionary change and solid cooperative 
relationship between the United States and Mexico.
    This committee has been a strong proponent of working with 
Mexico and understands the pivotal importance of this bilateral 
relationship. Many of its Members live in border States; 
several live directly on the border and know the importance of 
the U.S.-Mexican relationship.
    Together with my colleagues, we salute the--and with this 
committee, we salute the government of Mexico for the capture 
and apprehension of Chapo Guzman. Secretary Johnson, who has 
been to Mexico twice in the first 100 days of his service as 
the new Secretary of Homeland Security, relayed the same 
message directly to his counterparts.
    He congratulated them on this historic development and 
observed that this arrest and capture is emblematic of the many 
successes that Mexico has had in the fight against 
transnational criminal organizations, many of them most recent, 
as noted by the Chairman--Lazcano, Trevino, El Chayo. These 
were all major crime bosses in Mexico who are now either dead 
or in prison.
    As is the case in any complex investigation, and as Mexican 
officials noted, there indeed was strong U.S.-Mexican 
collaboration that led to the arrest. That should not be 
surprising to anyone, given the nature of our nations' close 
relationship.
    But one of the signal results of this was the recognition 
by U.S. authorities in the praise of Mexican authorities; this 
was a, as Mr. Feeley indicated, a Mexican victory won by 
Mexican marines and Mexican law enforcement officials. But I 
want to assure this committee, as my colleagues have, that the 
United States and Mexico will continue to work cooperatively 
and that there is, in fact, additional--and significant 
additional--work to be done.
    The relationship between the United States and Mexico is 
unique. It is historically unique because of migration, trade, 
family relationships, and cultural exchange. Trade between the 
United States and Mexico now amounts to more than $1.3 billion 
a day, making Mexico our second-largest trading partner and 
making us Mexico's largest trading partner.
    Mexico has a growing economy--indeed, the 13th largest in 
the world today, $1.16 trillion. Estimated by the OECD, in one 
generation in 2042 that Mexico will have a larger economy than 
Germany.
    It also is a society characterized by increasing success in 
terms of housing, health care, and education. The country is 
emerging as a regional leader in the Western Hemisphere.
    In the last 10 years Mexico and the United States have 
truly revolutionized our security and trade relationship. The 
transformation has been built on smartly managing the flow of 
goods and people; a new binational approach to border 
management, which stresses co-responsibility and shared duty 
and obligation; and No. 3, direct, sustained bilateral 
engagement among the highest leaders of both countries. The 
institution building is underway and will continue.
    Transnational crime is not the only shared concern which 
Mexico and the United States have an interest in addressing 
together. Significant efforts have focused on expediting the 
lawful flow of goods and people and interdicting and preventing 
the illicit flows of people, weapons, drugs, and currency, as 
well as working with Mexico and Guatemala to improve security 
along Guatemala's northern border.
    DHS continues to have a robust and mutually-beneficial 
relationship with our counterparts in the government of Mexico 
based on these new doctrines of co-responsibility and co-
migration--the co-management of migration issues and crime 
issues.
    Strengthening homeland security includes a significant 
international dimension. To most effectively carry out DHS's 
core missions--keeping dangerous people and dangerous things 
away from the American people--we must partner with countries 
around the world. No more important is our relationship with 
Mexico and developing that relationship as we move forward.
    Thank you very much, Mr. Chairman and Ranking Member. I 
look forward to responding to your inquiries.
    Chairman McCaul. Thank you, Mr. Bersin. I appreciate your 
closing comment that no more--relationship is more important 
than with Mexico. It is just right south of our border. The 
Middle East, halfway across the world, impacts our homeland 
security, but Mexico is right there.
    Let me just say first to Mr. Dinkins, I want to thank--or 
congratulate you and your agents for a job well done taking 
down the largest drug kingpin that we have ever known--one of 
the biggest threats to the world. Quite frankly, I think it 
should have gotten more news. It is a big deal and I just want 
to say, you know, thank you to you and your agents for what you 
did.
    Mr. Feeley, I appreciate your leadership on the Western 
Hemisphere, working with Roberta Jacobson, and my good friend 
at the State Department, on this issue. You know, I chair this 
committee but I also chair the U.S.-Mexico Interparliamentary 
Group and we meet with the Mexican congress every year to talk 
about these important issues, and I want to thank you for that.
    I do have to ask, though, starting out, I sent a letter, 
along with the chairs of my subcommittees, to Secretary of 
State and the Attorney General requesting that they request 
extradition of El Chapo Guzman to the United States of America. 
When I talked to the ambassador from Mexico, Medina Mora, who 
is a good friend of mine--former attorney general, former 
director of CISEN--we talked about this issue; he told me that, 
startling, that the United States has not requested extradition 
at that point in time and that he was open to that idea.
    Is this administration willing to seek extradition? The 
reason why it is so important is because we know El Chapo 
Guzman was in prison in Mexico under very like circumstances 
and broke out of prison and remained at large and, as Mr. 
Wilson said, gained great notoriety by doing that. I don't 
think that is a wise policy to have him in a Mexican prison 
where we can extradite him to the United States, put him in a 
supermax prison, and I would feel very confident, given our 
Federal prosecutors--and I was one of them--could get him life 
in prison.
    Could you answer that question?
    Mr. Feeley. I certainly can, sir, and thank you for that 
question. Thank you for your letter. The letter was extremely 
well-informed and you obviously, as I said earlier, as a 
prosecutor, know these issues exceptionally well.
    We have already here, in multiple instances and from 
multiple distinguished Members, congratulated the Mexican 
people and their government on the capture of Chapo Guzman. It 
was and remains a significant achievement and a major step 
forward in our shared fight against transnational organized 
crime.
    The decision whether to pursue extradition will definitely 
be a subject of conversation with the Mexicans. As you yourself 
know, sir, the wheels of justice often grind slowly. I will say 
that in my experience working the extradition portfolios in 
Colombia, in Mexico over a number of years, we are nothing if 
not relentless, and that is a good thing and that sends 
absolutely the right signal.
    Extradition is an enormously powerful tool that we have, 
and that is why the Department of Justice, my colleagues there, 
and the State Department, we spend so much time working on the 
extradition treaties to make sure precisely that we can make 
sure that people who commit crimes, even if they don't come to 
the United States, but where the effect of their crimes is fest 
in our communities----
    Chairman McCaul. I agree. My time is limited. With all due 
respect, are we going to seek extradition or not?
    Mr. Feeley. At this point, sir, that is an issue that is 
under discussion and it is with my colleagues in the Department 
of Justice. I will tell you that all I can say is look to the 
past and the way in which we have relentlessly pursued 
criminals.
    Chairman McCaul. Well, I would strongly encourage both the 
Secretary of State and the Attorney General to do so.
    Mr. Feeley. Message received.
    Chairman McCaul. Thank you.
    Mr. Dinkins, a lot of people think this threat is south of 
our border, it is not in the United States at all. Can you very 
briefly tell us about the threat in the United States with not 
only the Sinaloa but with all drug cartels and MS 13 gangs?
    Mr. Dinkins. Yes, sir. I think a lot of times people in the 
United States look south and they think it is an issue of--that 
it is a problem in Mexico, but the reality is, is those 
organizations live and breathe right in the towns--right here 
in the District of Columbia, New York, Atlanta. They are in 
their communities. That is where the drugs are being smuggled 
into, being distributed by the organizations, and being sold, 
as well as gangs taking over territory and enforcing the 
distribution networks for the different cartels.
    So this is a U.S. problem as much as it is a Mexico 
problem. It is also a problem that we need to wean ourselves 
off of the--look at ourselves and say, ``Why is there such a 
demand for these types of drugs in our communities?''
    Chairman McCaul. Yes, I agree. I think the fact that 
Chicago labels him ``Public Enemy No. 1'' shows that it is in 
the heartland of the United States, as well.
    Mr. Wilson, I thank you for your testimony. There have been 
speculation, I think early on in the new administration, 
comparing Pena Nieto to Calderon, that there was some 
speculation that he was not going to be as tough on the 
cartels, that he was going to bring down the violence but 
couldn't explain how or how he could accomplish that. Now, 
obviously the capture of both the Zeta Cartel leader and El 
Chapo Guzman I think maybe changes that narrative.
    Can you tell me what the difference in strategy is in 
cooperation between the Calderon administration and the new 
administration?
    Mr. Wilson. Sure. Thank you for the question.
    I believe there is actually a great degree of continuity 
between the two presidencies and the type of cooperation that 
exists.
    Of course, over time in Mexico, as the Calderon 
administration confronted the organized crime groups there 
emerged really a public security crisis because of the number 
of murders that were associated with the fight that resulted 
between cartels, between criminal organizations. So the primary 
challenge that President Pena Nieto confronted entering office 
was bringing down the levels of violence, of extortion, of 
kidnappings that were really wreaking great harm on society.
    So that has been his goal. The approach, as we have seen, 
has actually continued to be going for the top-level leaders 
and mid-level leaders of criminal organizations. At the same 
time, they have developed a strong program that is really just 
beginning to bear fruits in terms of crime prevention, creating 
a new portion of the Interior Ministry designed specifically to 
look at how they can use programs for social development, job 
creation, anti-crime programs targeted at youth, et cetera, to 
really prevent violence in the first place.
    So that is something that is still on-going, but it is 
really important to highlight that there has not been a 
weakening of the intensity of the effort to root out organized 
crime under the new administration.
    Chairman McCaul. That is good to hear. I think the recent 
captures demonstrate that.
    Mr. Feeley, last question: Pablo Esobar probably rivals 
notoriety with El Chapo Guzman. He got taken down in Colombia. 
After that time there became an unraveling within Colombia of 
the cartels and the Medellin Cartel.
    Can you tell us whether this event, the capture of El Chapo 
Guzman, that there is any analogy there, or will this just be 
like the head of the Hydra being cut off and another one grows 
back?
    Mr. Feeley. Thank you, sir. An excellent observation.
    December 3, 1993, I was in Colombia when Pablo Escobar was 
killed by members of the Colombian army. What we saw in the 
decade after that has been referred to by social scientists and 
crime experts as the atomization of cartels.
    As you know, sir, cartel really is the wrong name for what 
we face in Mexico and Colombia today. They don't collude to fix 
markets or to fix prices. They fight among themselves, quite 
frankly.
    With the take-down of Pablo Escobar, that left in the 
vacuum Cali Cartel. They were taken down. Extradition was an 
enormously important aspect of that take-down by the Colombian 
state with the support from the United States.
    As I said earlier, there is a formula to this that we 
constantly refine. Much of what we do in Mexico we learned from 
our experience in cooperating with the Colombians.
    The issue of the Hydra is one that you do have to look at 
very seriously. What we learned in Colombia and we practice 
today is that it is not sufficient to do what used to be called 
``kingpin strategy'' only; you must attack the networks. You 
have to go after the money. You have to focus on prevention, as 
well.
    In the early years of our cooperation in Colombia we 
focused on kingpin. We morphed that and developed it as the 
enemy reacted, as we reacted to their sort of shifting and 
changing.
    I think it is fair to say that if you look at the 
development of the Mexican cartels--and again, we know it is an 
erroneous term--but it started out as a cartel, the Guadalajara 
Cartel, back in the 1990s when they took over the sort-of 
ownership of the product, the cocaine coming out of the Andes. 
They went from being just merely subcontracted transportation 
experts to being the owners, the distributors here in the 
United States.
    One final comment I would make is that it is very difficult 
to predict, obviously, what will happen. But I will say this: 
Experience has shown that when you take down a figure like 
Pablo Escobar, or Chapo Guzman, or any of the other number--
Osiel Cardenas--you find that the guys who come up behind those 
leaders very frequently aren't as good, meaning that they don't 
have the organizational skills, they don't have whatever the 
intimidating or the co-opting power that the leader had.
    In short, it is not easy to be a cartel leader, and so as 
you take them out you have to hit it from the top and you have 
to hit it from the bottom.
    Chairman McCaul. In closing, I think the good news story 
here is that not only did we take out El Chapo Guzman but a lot 
of his underlying associates----
    Mr. Feeley. Absolutely correct, sir.
    Chairman McCaul [continuing]. As well. Thank you, Mr. 
Feeley.
    Chairman now recognizes the Ranking Member.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    Assistant Secretary Bersin, last month the full committee 
held a hearing on human trafficking. As you know, drug 
trafficking organizations often engage in other crimes, such as 
human trafficking and human smuggling.
    We had a local sheriff who testified before this committee 
that said comprehensive immigration reform would help address 
that problem. How would comprehensive immigration reform affect 
drug trafficking organizations, in your opinion?
    Mr. Bersin. Mr. Ranking Member Thompson, the connection 
between the smuggling of people I think is directly connected 
to the prospects for comprehensive immigration reform. To the 
extent that there is a legitimate labor market, legitimate and 
lawful ways to come into the country, you would see a decrease 
in the amount of smuggling of aliens.
    With regard to human trafficking, though, I think we are 
dealing with a different phenomenon. When people are being 
trafficked for purposes of labor exploitation or sexual 
exploitation or any of a variety of other illicit means, that 
is the kind of organized criminal activity that will take place 
unless stopped by and countered by law enforcement actions.
    So I think in analyzing the effect of immigration reform we 
should distinguish between the smuggling of people--of illegal 
migrants and the trafficking in human beings.
    Mr. Thompson. Well, okay. So if we had a different pathway 
to citizenship, that would help on the side of the criminal 
element. Is that your testimony?
    Mr. Bersin. Yes, sir. There is no question that the law 
enforcement efforts that have been applied in a bipartisan 
method over the last 20 years have increased the cost of being 
smuggled into the United States by an extraordinarily high 
level--perhaps five or six times what it was 20 years ago. So 
there is a direct connection, yes, sir.
    I am pointing out, though, that immigration reform won't 
solve certain forms of human trafficking and we have to remain 
vigilant on those.
    Mr. Thompson. I understand. But it is one of the building 
blocks to reduce it?
    Mr. Bersin. No question about that, sir.
    Mr. Thompson. Thank you.
    Mr. Dinkins, again, we want to thank you for your service, 
and I am sure we will see you somewhere in the future.
    Can you tell us some of the other ways DHS is working with 
the Department of Justice and the Mexican government to 
dismantle the cartels and other organizations like them?
    Mr. Dinkins. Absolutely, sir.
    First of all, we attack the gangs that are actually 
supporting protection for the distribution of the narcotics in 
the United States on our streets. We actually last year we 
seized $1.3 billion in currency, in monetary instruments; 80 
percent of that was linked to narcotics smuggling. So that is a 
huge amount of money that we are taking right out of the 
pockets of the cartels.
    So as Mr. Feeley stated earlier, you can't just look at the 
kingpins and the organizations themselves; you have to hit them 
more at all angles and they are diversified in the criminal 
activities that they do, and you have to address each one of 
those different criminal activities.
    Mr. Thompson. Thank you.
    Mr. Bersin, in light of what was just said, does the Merida 
Initiative, in your words, go far enough toward dealing with 
some of these things or do you think there are some other 
things we could do?
    Mr. Bersin. The Merida Initiative, as you know, Ranking 
Member Thompson, was the first security sector assistance 
program between the United States and Mexico, and it has 
contributed significantly to the success that we have examined 
here today. To the extent that we continue those programs and 
there remains funds in the pipeline for the Merida Initiative, 
as Mr. Feeley can describe in greater detail, we need to 
continue to provide this kind of capacity building, these kinds 
of equipment and technologies that are assisting the Mexican 
government.
    I think we need to continue. There seems to be sufficient 
funding for this fiscal year and the next. But we need to 
maintain this as a long-term institutional relationship between 
our governments, recognizing, though, sir, that Mexico, with 
the 13th-largest economy and a $1.16 trillion economy, is 
increasingly able to take care of its security needs on its own 
wallet.
    Thank you.
    Mr. Thompson. Thank you.
    But you--and I thank Mr. Freeley--you do support this 
notion of cooperation between governments as something that 
absolutely has to continue?
    Mr. Feeley. Undeniably so, sir. I would just simply point 
to Colombia. Our relationship with Colombia, in terms of 
cooperation and transfer of human capital--skills, leverage, 
technical assistance, et cetera--has been going on since 2002. 
The funding for that is on a downward trajectory.
    Just as Mr. Bersin said, as these countries stand up their 
own abilities to deal with their own internal rule-of-law 
situations, the requirement for U.S. technical assistance, 
expertise, hardware naturally drops off. But these programs--
and there are four in the Western Hemisphere: There is one for 
Mexico, called Merida; there is one in Colombia--we now re-
baptized it, it used to be called Plan Colombia, it is now 
called the Colombian High-Level Strategic Security Dialogue; we 
have one focused on Central America; and we have one focused on 
the Caribbean.
    They are the essential vehicles for us being able to build 
the partnership relationships that we need with host 
governments so that they can be our partners in keeping their 
citizens and the American people safer.
    Mr. Thompson. Thank you.
    I yield back, Mr. Chairman.
    Chairman McCaul. Thank the Ranking Member.
    Dr. Broun is recognized for 5 minutes.
    Mr. Broun. Thank you, Mr. Chairman.
    Mr. Feeley, I am going to go back to a question that the 
Chairman asked you about the extradition of El Chapo.
    We all know there is a tremendous amount of money in these 
drug cartels. I don't think anybody will deny that. I don't 
think anybody will deny how much influence a tremendous amount 
of money can have in corrupting individuals within the judicial 
system, within the military system, within the policy system 
itself.
    Frankly, I think it is absolutely unconscionable that this 
administration has not already asked for the extradition of El 
Chapo. I think their not doing so, you all not doing so, ranges 
from just irresponsibility all the way up to incompetence.
    I am not convinced that El Chapo will remain in prison. It 
is my understanding that when he was in prison before he 
continued to operate his drug cartel and was just as effective 
in prison as he was out of prison.
    It is absolutely critical, if we are going to have some 
resolution, if we are going to break down this cartel, if we 
are going to stop the influence of El Chapo and his cartel and 
any other cartels, we not only have to get people like him 
extradited to the United States and put them in a supermax, as 
the Chairman has suggested, as well as get their underlings 
also brought to the United States where they can be prosecuted, 
where we will know that we can chop the head off of this 
poisonous snake.
    Frankly, I am not convinced from what you have told us 
already that that is going to happen. I hope that--my whole 
message is that we have got to get this drug kingpin extradited 
to the United States so that he can be prosecuted and that he 
can be dealt with because he is a killer, he is one who has not 
only been involved in outright killing of individuals within 
the cartel's function, but he is a killer of American citizens 
in promoting their drug and their alcohol--well, not alcohol, 
but their drug business here. He is killing children's lives 
with the sex trafficking and the other things that this animal 
is doing. We have got to get him here.
    Please assure me that we are going to just not talk about 
it, as we have been doing. As you said, there are discussions. 
Let's get him here. Ask for the extradition.
    I think it is incompetence to not do so. Please tell me 
that you are going to do this quickly.
    Mr. Feeley. Dr. Broun, I very much appreciate the 
frustration that you feel, and I understand--I absolutely 
concur in your description of the evil menace that Chapo Guzman 
and others like him represent to the American people.
    I would simply offer that at the essence, what you are 
talking about and what we are talking about is a question of 
trust and confidence in our partners. I would offer the 
following reflection. The answer that I have is still the same 
one, and it is I work for the State Department; extradition is 
the purview of the Department of Justice but we work 
collaboratively in it so I am not trying to worm out of this at 
all.
    We will be in discussions with the Mexicans regarding the 
extradition of El Chapo Guzman. I assure you of that.
    Those discussions may not produce the immediate transfer of 
him for the following reasons: He has also committed the same 
atrocities on the Mexican people, and the----
    Mr. Broun. Mr. Feeley, my time is about to expire. I 
appreciate your----
    Mr. Feeley. Sure.
    Mr. Broun. I am going to have to cut you off because my 
time is limited. I have 1 minute left.
    Mr. Feeley. I hear you.
    Mr. Broun. The thing is, the operative word that you just 
gave me was ``we will.'' We should have been already. It is 
past time, way, way past time.
    As soon as he was arrested there we should have begun that 
process. This is something that is absolutely critical for the 
security of American citizens not only in the border States, 
but in my own home State of Georgia.
    I am an addictionologist. I treat people that have been 
affected by this animal.
    We have got to get him here and try him and have--go 
through the due process. But once that due process occurs, 
let's get him here, and having him sit in Mexican prisons--
hopefully you are right, but I don't know. I don't think 
anybody knows whether it is going to occur because there is so 
much money involved, so much graft and corruption that can be 
bought through this cartel.
    Get him here. Get him here quickly so that we can try this 
animal in our courts so that he gets his just due.
    Mr. Chairman, I am out of time. I yield back.
    Chairman McCaul. I thank the gentleman.
    Chairman now recognizes the gentlelady from California, Ms. 
Loretta Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Mr. Chairman, I would like to begin by asking unanimous 
consent to submit for the record a report by the California 
Attorney General's Office entitled ``Gangs Beyond Borders: 
California and the Fight Against Transnational Organized 
Crime.'' It is a thoughtful report about what my home State is 
doing to combat these criminal enterprises, from anti-money 
laundering to the role local and State law enforcement has in 
coordinating with their Mexican counterparts, and I would 
like--I would ask that the report be set into record.
    Chairman McCaul. Without objection, so ordered.*
---------------------------------------------------------------------------
    * The information has been retained in committee files and is 
available at https://oag.ca.gov/transnational-organized-crime.
---------------------------------------------------------------------------
    Ms. Sanchez. Mr. Secretary, California has been at the 
forefront of coordination on the State level with Mexican 
officials regarding these transnational criminal networks, and 
all--you know, money laundering, false IDs, moving guns, 
people, et cetera. What coordination does our Department have 
in engaging with our border States to make sure that they have 
support as they are trying to deal with some of these MOUs and 
programs that they themselves are putting in?
    Mr. Bersin. Ms. Sanchez, as you know, there is close 
cooperation in not only California but also in Texas and 
Arizona and New Mexico between Federal and State authorities, 
both in--at the level of the Department of Homeland Security, 
Homeland Security Investigations, which Mr. Dinkins heads up, 
Customs and Border Protection, which includes both the field 
operations and the Border Patrol.
    In each of the corridors--in each of the border States, but 
within each of the zones in each of those States--there are 
close liaison groups involving the knitting together of State, 
local, county, and Tribal law enforcement to confront the 
threats presented by transnational criminal organizations. They 
coordinate with the so-called high-intensity drug trafficking 
area groups. But, as you know in California, there are many 
other instances in which we see this coalescing of Federal and 
State efforts.
    The information exchange has never been better in terms of 
State and local law enforcement with Federal authorities, and I 
trust that will continue, recognizing, as you suggest, how 
critical it is to the struggle against transnational criminal 
organizations.
    Ms. Sanchez. Thank you, Mr. Secretary.
    I also have a question going back to something that 
Chairman Thompson asked about earlier, and this is the whole 
issue of human trafficking. We know that these transnational 
criminal networks do a lot more than just drug traffic; they do 
whatever is profitable. If it is profitable to move guns, they 
will move guns; if it is profitable to move people, they will 
move people. It is the same network, pretty much, that they are 
using to move these people across our border.
    A few years back now, maybe 10 or so, there was a big 
crisis or a big spotlight on El Paso, what is deemed as one of 
the safest cities in the United States, versus the city of 
Juarez, which was, of course, one of the most dangerous cities 
in the world. You know, there were these missing women or these 
women who had ended up dead or couldn't be found, et cetera.
    We continue to see in California and other border States 
this movement of women who are trafficked a lot for the sex 
trade. We read reports where there are bars that are very--on 
our side of the border where women are brought and drugged, and 
hotel rooms by the 30 minutes, et cetera.
    What are we working on to ensure that this--that we are 
cutting into this really disgusting sex trafficking that 
happens on a nightly basis from, in particular, women from 
Mexico who are trafficked over and used, but we also see young 
women from our own big cities being trafficked down there for 
the same purpose?
    Mr. Bersin. Ms. Sanchez, you are correct. Some have 
characterized the human trafficking for sex purposes as the 
newest and greatest threat that we have seen that has 
accelerated in its importance over the last 10 years. Indeed, 
as you suggest, there is a special place in hell for those who 
engage in the trafficking of human beings for sexual 
exploitation purposes.
    The United States Department of Homeland Security and the 
Department of Justice, as well as the Department of State, have 
mounted significant efforts to counter this trend. Recognizing 
the link, which you also posited, between organized criminal 
groups that regulate the movement across the plazas from Mexico 
into the United States to see the connection between those and 
these trafficking groups has been a special focus, for example, 
of HSI, Homeland Security Investigation investigators.
    The State Department, together with the Department of 
Homeland Security, have promoted something called the Blue 
Campaign, which is an international effort to publicize the 
horror of the crime, the means and methods of the crime, and 
the need to combat it not only with our officers, which we do--
so parenthetically, CBP officers, those at the 320 airports, 
seaports, and land ports, actually have been specifically 
trained to keep their eyes peeled for the tell-tale signs of 
young women who are being brought into the country for the 
purposes of sex trafficking. So you have a combination of 
public service campaigns, public announcements that are being 
capitalized in Central America and in Southern Mexico, that 
warn against this.
    So the crisis that you suggest, the horror of sex 
trafficking, is recognized, and while we can always do more, 
there are significant efforts to counter it underway.
    Ms. Sanchez. Thank you, Mr. Chairman. I think this is just 
such a travesty that this operates on our--mostly on our side 
of the border, with respect to this. I would hope we might be 
able to find a way in which we can buttress our local law 
enforcement to really go after these hotel operators, these bar 
operators that know this is going on and it just never seems to 
stop.
    I want to give not only an indication to Mr. Dinkins about 
moving on, but also thank you for the work that you guys are 
doing with respect to those investigations.
    Chairman McCaul. We thank the gentlelady for raising that 
issue. We had a field hearing in Houston on this issue and it 
was very powerful, moving, including victims' testimony. I 
intend for this committee to move legislation on that issue, as 
well.
    Ms. Sanchez. Great. I would like to work with you on that.
    I have some other questions with respect to other issues. I 
will submit them for the record.
    Thank you, gentlemen. Yield back.
    Chairman McCaul. Thank the gentlelady.
    Chairman now recognizes the gentleman from Pennsylvania, 
Mr. Perry.
    Mr. Perry. Thanks, Mr. Chairman.
    Thank you, gentlemen, for your appearance and thanks for 
your service.
    I am going to probably go a little bit off the script just 
to gauge your knowledge on a particular program that I find 
interesting in Homeland, which--Mr. Dinkins, are you familiar 
with the unmanned aerial systems role that the Department uses? 
Can we talk about that a little bit?
    Okay, well I will ask these questions and see--first of 
all, do you know, do we operate any of the vehicles--I mean, I 
have seen--and if this is Classified, that is appropriate, let 
me know. But I have seen some of the tracks that we use to move 
the vehicles around the country, because they might be--you 
know, they might be down south and we need them north or vice-
versa, what have you.
    But I am unclear as to whether we only fly on our side of 
the border or if there are occasions to fly on the other side 
of the border, so to speak, outside of United States airspace. 
Can you speak to that at all?
    Mr. Dinkins. Sir, unfortunately I can't. I am a consumer of 
using those when I need support from CBP, but----
    Mr. Perry. Okay.
    Mr. Dinkins [continuing]. They provide the service that I 
need and I am not sure what operation requirements that they 
need and have.
    Mr. Perry. Because we work and collaborate with, let's 
say--if we say Mexico, or Canada, for that matter, and let's 
say an operation that this El Chapo guy--maybe if he was close 
to the border, was that something that you would request the 
use of the drone for, and do you know of any times when it has 
flown into Mexican or Canadian airspace? Have you ever 
requested in that regard or have all your requests been on our 
side the border?
    Mr. Dinkins. Ours would be on our side of the border.
    Mr. Perry. Okay.
    Mr. Bersin, do you have----
    Mr. Bersin. Yes. I actually can speak to this because the 
program is under the auspices of Customs and Border Protection, 
and I had the honor for 2 years of serving as the commissioner.
    With respect, sir, I suggest that, given to the full 
details of the implications of the questions you are asking, 
that that best be held in a less public setting. The fact is 
that it is one of the very important programs for situational 
awareness that the Department of Homeland Security has built 
and it has served both in natural disaster settings, such as 
monitoring the floods in the north, as well as for border 
security purposes in the south.
    For further details, in terms of its use in connection with 
external activities, I would suggest that we do that in a 
nonpublic setting.
    Mr. Perry. That is fair. I will request that from the 
Chairman.
    Let me ask you this, since you seem to have a little bit of 
knowledge: I also am concerned about the capability, so to 
speak, and the cost associated with the aircraft, in particular 
is the MQ-9B. It has got about a 66-foot wingspan, which is 
longer, by far, than this--it is about three times as wide as 
this room is and it carries 4,000 pounds.
    Now, generally speaking, I think the payload is a camera, 
generally speaking, but the winglets hold--or the wings hold--
wing stores can hold a significant--about a 4,000-pound 
payload. Do you know what the--how they determined that was the 
correct asset to purchase for the mission?
    Mr. Bersin. I do not, sir. I will say that the UAVs that I 
am familiar with, and the ones I believe that CBP utilizes, are 
the so-called Predator, but you have--so that the one that you 
describe is one that, frankly, I am not familiar with.
    Mr. Perry. That is the Predator.
    Mr. Bersin. Okay.
    Mr. Perry. That is a designation for----
    Mr. Bersin. Well, that is the examination of its utility 
for monitoring purposes, both in the case of natural disasters 
and for security purposes, I think was the subject of 
significant review in the first part of the 21st Century, when 
the decision was made to acquire that asset. But I cannot give 
you the full technical description of how that was assessed.
    Mr. Perry. Okay.
    Mr. Dinkins, anything to add?
    Mr. Dinkins. Sir, unfortunately I don't have any----
    Mr. Perry. Mr. Feeley, go ahead.
    Mr. Feeley. Sir, I can add one thing. I agree with my 
colleagues that for a full description of the operational 
aspects of this, a less public setting is appropriate.
    However, the Mexican government has, on two occasions that 
I am aware of, recognized that the use of unmanned, unarmed 
aircraft from the United States have been requested and 
delivered by U.S. service providers, including CBP. This was 
back in I believe it was 2010, 2011, their secretary of 
interior was brought before their congress. As you are aware, 
there is always an issue of sovereignty when you deal with 
Mexico, and the idea that there would be unmanned aircraft 
flying over Mexican airspace that Mexican officials were not 
aware of, I can tell you that does not happen.
    On the occasions when there is a request for aerial 
surveillance, it is always strictly coordinated, it is 
requested by the Mexicans, and we do our best to comply.
    Mr. Perry. I will conclude with this, Mr. Chairman.
    So it is your understanding or knowledge that we have flown 
into Mexican airspace upon request of the government?
    Mr. Feeley. Yes, sir.
    Mr. Perry. Okay. Thank you.
    That concludes my question, Mr. Chairman. I yield back.
    Chairman McCaul. Chairman now recognizes the gentlelady 
from Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. Thank you very much.
    Let me thank the Chairman and Ranking Member for a very 
timely hearing.
    Again, to the gentlemen making their presentations, thank 
you so very much for your presence here.
    I will add my appreciation, Mr. Dinkins, for your service. 
You have certainly been before our committee, but as well, you 
have served this Nation and served it well. Congratulations to 
you on your tenure.
    This is an area of interest, particularly for those of us 
from the State of Texas, because we have a conflicting and 
conflicted relationship with our dear friends in Mexico. We 
have a vigorous and vibrant interaction on the border with 
respect to travel, trade, friendship, education, and exchange.
    I serve as the Ranking Member on the Border and Maritime 
Security Subcommittee, but even before that would spend a lot 
of time from the days of a--as a local elected official 
traveling back and forth and engaging with local elected 
officials in Mexico. So it has a ring of being a neighbor, and 
I think that is an important aspect of what we do here today. 
But at the same time, we have challenges that I think should be 
better solved--or could be better solved because we are 
actually friends.
    So I have a series of questions--or allies, as you would. 
Certainly it has been enhanced when the NAFTA agreement was 
passed between Mexico, Canada, and the United States. I want to 
remind all my good friends that Mexico is in North America. So 
we have a stronger relationship than one might think.
    Let me also indicate that I was out of the room just for a 
moment. Lauryn Williams, a U.S. Olympian, is visiting my 
office, and so I wish her well and I thank the Members for 
their courtesies on that.
    But let me just go directly to Mr. Feeley and pose a 
question of--extradition is a harsh word. So I would like to 
ask it in this term: It is clear that we have the 
infrastructure to hold Mr. Guzman. Mr. Guzman has had an 
international presence. He has caused the devastation and loss 
of life on both sides of the border.
    We are two nations that are in North America. Wouldn't it 
be appropriate--not to step on the sovereignty of Mexico; that 
is not the intent--but to be very firm to say that in working 
as friends we can, as a friend, with your collaboration and 
input and necessary infrastructure in place, try Mr. Guzman 
that would cover the devastating acts that he has--and deadly 
acts--has perpetrated in Mexico here in the United States? In 
fact, I would almost insist that we make that proposal to the 
present president and find a way not to negotiate up but to 
negotiate in a lateral way, saying, ``How do we get this 
done?''
    So, Mr. Feeley, where are you with that? Because when I 
listen to your testimony are were suggesting it is on the 
table, it is down the road. I frankly believe it should be on 
the table and done. Please help me understand why we have not 
moved more swiftly on that issue.
    Mr. Feeley. Absolutely, Ms. Jackson Lee, and it is a 
pleasure--it was a pleasure to welcome you in Mexico when you 
came and we went up to Los Pinos in the last administration, 
and I thank you for your continue interest in Mexico.
    Let me begin by a--perhaps offering a point of comparison. 
In 2002 Osiel Cardena Guillen, the founder and the boss of the 
Gulf Cartel, another very powerful----
    Ms. Jackson Lee. Mr. Feeley, I have a short period of time. 
I need you to jump quickly----
    Mr. Feeley. Got it. I am going to go fast. He was arrested 
in 2002; he was extradited to the United States in 2007.
    Ms. Jackson Lee. All right.
    Mr. Feeley. The Mexicans have got Barbie, they have got--
which is a nickname for a very well-known drug trafficker. The 
Mexicans, through Merida, have improved their penitentiary 
system significantly since Chapo Guzman escaped from Puente 
Grande in Jalisco state a number of years ago in 2001.
    We have significant trust and confidence that the Mexicans 
are able to hold him, and we also do respect that the 
descriptions that Dr. Broun and yourself have made of the 
damage and the horror that he and his drug trafficking cartel 
have visited upon the American people--he has also done that to 
the Mexican people. So it is in full respect, as partners, that 
we will discuss his possible extradition in the future.
    We are allowing, again, as partners, the Mexicans to hold 
him.
    Ms. Jackson Lee. Thank you.
    Mr. Feeley. We will do everything to help them do that.
    Ms. Jackson Lee. Let me get my last question in--last 
effort of questions.
    But let me say to you the Merida has worked well. Let me 
again emphasize that I believe we should move more swiftly 
toward extradition here to the United States with all respect 
for the sovereignty and friendship of our friends.
    But let me just ask this question about the intermingling 
of human trafficking, sex trafficking, and what I call modern-
day slavery that becomes part of the business now of cartels, 
which means that now our children--both Mexican children and 
women--many of you may have remembered or do remember our 
colleague, Hilda Solis, who gathered us as women on the 
enormous killings of Mexican women alongside of the border. We 
have never solved many of those problems or many of those 
cases, and those cases were under the jurisdiction of Mexico.
    Now you have a cartel that, even with Guzman--so my 
question is this: Is the cartel still alive? I would ask those 
who want to--Mr. Dinkins or Mr. Bersin or any of--cartel still 
alive? How much fear--and we had a hearing on this; I want to 
again thank the Chairman on this hearing--how much fear do we 
have that now this business will be expanded into sex 
trafficking, human trafficking, smuggling, and slavery?
    If someone can answer that, I would--No. 1, is the cartel 
still alive? Guzman is gone, or at least arrested.
    Then this other business that is growing.
    Mr. Feeley. Very quickly, ma'am, the cartel is still alive. 
Of the major trafficking groups, this is the cartel that most 
exclusively focuses on drug trafficking as opposed to expanding 
into other areas, such as sex trafficking. The ones most 
associated with that tend to be the Zetas, who operate in and 
fight for territory all throughout Mexico.
    You are absolutely right that they are intertwined, and 
that is why the overall investigative rule-of-law capacity 
building has to continue to be able to address everything that 
is moved along illegal networks.
    Ms. Jackson Lee. Mr. Dinkins, any comment?
    Mr. Dinkins. Yes, they are still alive but they are on the 
run.
    Ms. Jackson Lee. The human smugglings? Are you seeing that?
    Mr. Dinkins. You know, the great thing about combating the 
human smuggling, as you know, and I applaud your passion behind 
it because that is what it is taken, is the awareness that has 
been brought to the attention, so we are able to nip it at a 
lot of--at the bud really quick so it becomes not profitable 
for any organization because there is no ability to actually 
traffic the victims to begin with.
    State laws, Federal efforts, Blue Campaign awareness--you 
know, our arrests are up 400 percent in 4 years for human 
trafficking, and it is because of the combination of all that 
coming together.
    Ms. Jackson Lee. I thank you.
    Thank you, Mr. Chairman. I yield back.
    Chairman McCaul. Gentlelady.
    The gentleman from South Carolina, Mr. Duncan, is 
recognized.
    Mr. Duncan. [Off mike.] All right. We will start that over.
    Iran and Hezbollah have penetrated countries in Latin 
America and the Caribbean region, and they are exploiting the 
loose border security measures and cooperating closely with 
drug cartels and other criminal networks in the region. In 
February the commander of the U.S. Southern Command testified 
before Congress and he said this: ``Hezbollah has long 
considered the region a potential attack venue against Israeli 
and other Western targets,'' but he admitted U.S. intelligence 
gaps in truly knowing the full awareness of Iranian and 
terrorist support networks in the region.
    So the question I have for you, Mr. Feeley, is, with so 
many reports of connections between Mexican drug trafficking 
organizations and Islamic terrorist groups, namely Hezbollah, 
what impact do you see El Chapo's capture having on Iran or 
Hezbollah's activity and ability to exploit the leadership 
vacuum to further their influence in the region with the drug 
cartels and other criminal networks? I will point directly to 
the assassination attempt of the Saudi ambassador here in this 
country coming through the Southern Border using the Mexican 
drug cartels.
    So if you could speak to that?
    Mr. Feeley. I certainly can, and I thank you for the 
question. It is an extremely important one.
    I thank you for your leadership in keeping focused on the 
threat of Iran's influence in the Western Hemisphere.
    In point of fact, sir, after a number of years service in 
Mexico I have come away from that convinced that it remains an 
enormously important task for the entire interagency to stay 
focused on this. But what we have not seen is the deep 
development of an Iranian network, whether cellular or 
centralized, in Mexico that is cooperating with the cartels.
    The case to which you referred, Manssor Arbabsiar, which is 
now an open case--the charging documents are up on the 
internet; he is now serving a very long sentence in the United 
States. What that indicated was that he was, in fact, a lone 
agent. Now, that does not make him any less dangerous and 
nobody is saying that because he was caught that that is it, 
game over.
    We must use all of the resources we have of the 
intelligence community, the FBI, HSI, DEA, because that nexus 
is always there and it will always be there and we need to look 
at it.
    But again, when he came through he thought he was dealing 
with Zetas. In fact, he was not. There is no evidence to 
indicate that he ever made contact with them; he in fact made 
contact with a DEA undercover agent.
    So again, I appreciate your focus on this. We remain seized 
of this issue and our Mexican counterparts, who, I must say, in 
that--I was in the embassy and I helped direct part of that 
operation. Our Mexican counterparts--that was a watershed for 
us--they stood up--they have absolutely no desire to make 
Mexico or to allow Mexico to become any kind of hotbed of 
Islamic extremism that can come across the border, hurt us, 
hurt the Saudi ambassador here at Cafe Milano, as was his 
stated intent.
    So they have worked with us extremely well, and that was 
the first watershed case, and the result of it, much like the 
result of the Chapo Guzman operation, my observation is it only 
bound us closer together.
    Mr. Duncan. Well, I appreciate that. The Mexican 
authorities told Chairman McCaul and I that same thing when we 
were visiting with them a year or so ago.
    I want to reference California's attorney general report 
that Ms. Sanchez put in the record, and it is highlighting the 
growing operation of Mexican drug cartels with street gangs. So 
have you seen Iran or Hezbollah seeking to exploit this growing 
relationship through mosques or cultural centers in the United 
States?
    Mr. Feeley. I would defer to my law enforcement colleagues 
for the U.S. perspective.
    In Mexico, no we have not. There are a number of small 
gangs that operate; they are not at the level of the cartels--
Barrio Azteca, Mesicles. They operate up along the border.
    They tend to be transnational in that they do cross. Many 
of them are American citizens and they live and work on both 
sides of the border, as does much of that community, as Mr. 
Chairman knows.
    We have not seen any indication that they are being 
penetrated or even approached by the cultural centers. In 
Mexico----
    Mr. Duncan. In the essence of time, let's let Mr. Dinkins 
answer, as well. Thank you for that, Mr. Feeley.
    Mr. Dinkins. No. We have not seen that in the United 
States. I think a driving factor behind that is, it is not in 
the interest of any drug trafficking organization or any type 
of criminal enterprise to introduce somebody that is going to 
do harm to the consumer, and ultimately--so it is--while they 
are probably not beyond it, it is not in their interest to do 
so and so we have not seen that type of association.
    Mr. Duncan. Thank you guys for that.
    In the essence of time, last question: The new leadership--
how do you see that playing out? You mentioned that you didn't 
think it had the skills necessary for organization and other 
things, but from a law enforcement standpoint, how do you see 
the new leadership of the cartel?
    Mr. Dinkins. You know, I think as we take off their 
leadership, and as Mr.--as we have heard today, is that it 
takes a special skill set to build an organization, and it is a 
lot less to actually have folks that are just simply within the 
organization that are going to step up. We need to make it to--
heading an organization is like when you read on the back of 
cigarettes, it is bad for your health. Same thing as heading up 
a drug trafficking organization in Mexico, and they are making 
that.
    So they are going to get less-qualified people; it is going 
to cripple them long-term. As you--law enforcement persists to 
attack them at every angle they will eventually crumble and 
resort to--you know, we can't stop crime, but they will resort 
to the bloodshed that they have been accustomed to.
    Mr. Duncan. So you don't think El Chapo had a successor 
that he was training and grooming for an ultimate leadership 
position?
    Mr. Dinkins. I am sure that there are people willing to 
step up into that vacuum, but they are going to be less 
qualified and less effective.
    Mr. Duncan. We will see how that happens.
    Mr. Feeley.
    Mr. Feeley. Sir, I would just add, there are indeed some 
folks that are out there: Ismael Zambada; Esparragoza, known as 
El Azul. These are folks who have been around for a long time. 
The Federation, or the Sinaloa Cartel, is perhaps the most 
developed and most organized of all of the cartels, and, as I 
said earlier, it sticks very closely to what it does best, and 
that is moving drugs.
    It is not the most shockingly violent; it is not the one 
that gets involved in human trafficking. It is depraved and it 
will use violence and intimidation when it has to.
    The folks who are currently--we believe, we assess--
currently running the show have been around for a while. It is 
not like it is their first rodeo. But they are under multiple 
indictments and we are going after them, with our Mexican 
counterparts, as hammer and tongs, as we went after Chapo.
    Mr. Duncan. Okay. Thank you.
    I yield back.
    Chairman McCaul. I thank the gentleman.
    Let me just, if I could comment on, Mr. Dinkins, the ads on 
the carton of cigarettes. If people in the United States knew 
that when they purchased cocaine and other narcotics in the 
United States that they were actually complicit with violence 
and the horrific killings of individuals in a very grotesque 
manner, I would advocate that sort of advertisement campaign. I 
haven't seen it to date and it is something I am actually very 
interested in.
    With that, the Chairman now recognizes the gentleman from 
Louisiana, Mr. Richmond.
    Mr. Richmond. Thank you, Mr. Chairman. Thank you for 
calling this meeting.
    I will just pick up where Congressman Duncan left off. The 
void that is there--do you all anticipate any increased 
violence, either from other cartels moving in or within the 
ranks of El Chapo's cartel, in terms of a power battle to fill 
that void?
    Mr. Feeley. Our DEA colleagues aren't at this table right 
now. They obviously have got a very primary role in doing this, 
and some of the very best analysis that I have seen as a State 
Department consumer comes from DEA as well as from HSI, FBI, 
and the whole of Government.
    My understanding of the current scenario is that there 
probably isn't going to be a really nasty knock-down, drag-out 
fight for leadership simply because there were a couple of 
these individuals that I mentioned who are long-time 
confederates of Chapo Guzman.
    He also has several sons who have been involved in the 
business, and much to a traditional mafia or cartel or 
organized crime model, they tend to keep things pretty close 
in. Again, because Sinaloa has historically been among the 
more, if you will, disciplined cartels, I don't think we are 
going to see a tremendous amount of internecine fighting with 
the Federation.
    What I do think you probably will see--and this has been 
going on for a long time--is intra-cartel fighting. So there is 
a good chance that they will see the Sinaloa cartel as a winged 
bird appropriately weakened, minus their leadership, and other 
groups may go after them to try and take over the all-important 
trafficking plazas.
    Mr. Richmond. That was my question, so thank you for that 
answer.
    Mr. Chairman, for part of my questions--and I think that 
DEA would be an appropriate entity, because after--and then, 
Mr. Dinkins, you can comment on it--much as we talk about the 
cartels and the violence associated with the cartels, we also 
have to look at, in our own backyard, the war on drugs that has 
been a dismal and absolute failure, in my opinion, over the 
last decade.
    So we talk about the cartels and the trafficking that comes 
over. I see in my neighborhood the end-user and the street-
level dealer, but the middle man, once it comes over, what--are 
you all involved at all in that aspect of it?
    Mr. Dinkins. Not in the distribution--the domestic 
distribution; that is DEA's wheelhouse as well as our State and 
local law enforcement partners.
    But I will say, when you look at the war on drugs and we 
talk about that is we often forget that law enforcement can't 
solve a social issue, and I think it is--we have been turning 
to law enforcement, been trying to do education, but at the end 
of the day we look at law enforcement and we beat ourselves up 
about what more can we do.
    I think a lot of that comes back down to there needs to be 
examination of what is causing the children to start using the 
narcotics and drugs in the first place, and we can't arrest our 
way out of this one.
    Mr. Richmond. Or incarcerate our way out of this one, which 
depletes funds that could go to you all and make sure.
    The other thing that we have noticed is that you all have 
identified hotspots on the border, in terms of the major areas 
where trafficking comes, and I am sure that the cartels adapt 
and change their routes. How do we adapt and anticipate those 
route changes and respond to it?
    Mr. Dinkins. Yes. We have seen that. We have seen that, for 
example, on pangas, which are these open-bow vessels that can 
hold thousands of pounds that used to once upon a time just go 
from Mexico right into San Diego. We see those vessels going 
all the way out, carrying thousands of pounds of drugs all the 
way up the--then just south of San Francisco and the San 
Francisco area.
    So we have adapted, and we shift resources there with our 
partners at CBP, working with DEA on different intelligence. 
But we have been able to shift, and the beautiful thing about 
technology is that it is--it assists the transaction of 
criminal organizations, but it is also a tool for us to use 
against them, and we are able to use technology to aid us in 
that, as well.
    Mr. Richmond. Mr. Bersin--and this will be my final 
question--it would be almost similar to my prior one, 
concerning spill-over violence in our border communities in the 
United States from cartels. What are our concerns there and 
what are we doing to address it?
    Mr. Bersin. So briefly, Congressman, there are two types of 
spill-over violence, one that would involve having Mexican 
organized criminals come over into the United States and 
actually shoot up the town. With an exception of quite a while 
ago now, we have not seen that kind of spill-over violence.
    But to the extent that you refer to what you have, which is 
the effects of Mexican drug trafficking organizations in our 
communities, in our neighborhoods, there is considerable 
violence that is generated by the drug distribution activities 
and the human trafficking activities. To that extent, the local 
law enforcement, together with Federal law enforcement, is 
charged with dealing with that species of spillover violence.
    So, it is not a norm, then, for the cartels to either have 
direct involvement or to order violence in our communities. I 
guess----
    Mr. Bersin. That is correct, Congressman. In fact, the 
crime records on the U.S.-Mexican border, measured by FBI 
statistics, are the lowest that they have been. As Mr. O'Rourke 
will tell you, El Paso and San Diego are among the two of the 
10 safest cities in the United States. So we don't see--we have 
had occasions where we have Mexican criminals coming over and 
committing crimes, but the mass violence that we have 
occasionally seen--or frequently seen in Mexico has not 
occurred in the United States.
    Mr. Richmond. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Chairman McCaul. Chairman recognizes the gentleman from 
Pennsylvania, Mr. Barletta.
    Mr. Barletta. Thank you, Mr. Chairman, for this very 
important hearing.
    Mr. Bersin, let me just say that I disagree that the 
immigration reform that is being discussed here in Congress 
will have significant effect on the war on drugs. I say that 
because I know for a fact that many of these characters, these 
actors will use fraudulent documentations to hide their true 
identity.
    Don't you agree that if we don't do proper background 
checks on these individuals, if we are talking about 
immigration reform, we will never know the true identity of the 
person, we won't know the history of their country of origin, 
what they are dealing with. If we are just looking at 
paperwork, that is not a proper background check, and this 
immigration reform will never achieve what many are saying it 
will.
    Mr. Bersin. Mr. Barletta, with due respect, what my comment 
went to is the interaction between the proposed or potential 
immigration reform and human smuggling activities, not the 
impact on drug smuggling.
    You are exactly right. When people are cleared for legal 
status, if that comes to pass, that is going to be a critical 
element in the mix in terms of just filtering out, so to speak, 
those who have criminal records. That--without going further, 
that has been a subject that, as you know, has been discussed 
and will continue to----
    Mr. Barletta. That is a deal-breaker for me. I can't go any 
further with this discussion until they can satisfy me that we 
are going to do those proper background checks. I don't want to 
give a legal status to a drug dealer, a gang banger, a 
terrorist.
    You know, how do you separate salt from sugar if you are 
just looking at papers? We are giving the American people this 
false sense of security that somehow if we bring people out of 
the shadows everything is fine and dandy and all these problems 
are going to go away when, in fact, we are giving them a ticket 
to use what they are going to do legally, now, in our country.
    So I am very careful that--I don't know how we are going to 
do it on 11 million people. Nobody has been able to tell me 
that.
    Mr. Bersin. Again, with due respect, I don't think anybody 
believes that those who have committed serious criminal 
offenses should be given a legal status----
    Mr. Barletta. How will we know? How will we know if we----
    Mr. Bersin. Well, I can tell you from my position now in 
Homeland Security, in terms of the vetting of the million 
people who cross our borders every day, we have hugely improved 
methods of determining who presents a high risk. We have 
federated computer searches that permit us to check all of the 
criminal records of people. So I think perhaps we should 
examine those means and methods.
    Mr. Barletta. None of that has been discussed in 
immigration reform that I am hearing here on the Hill. You 
know, it sounds good, ``Well, we are going to do background 
checks on everyone and then we are going to proceed,'' but 
nobody has been able to talk about how we are going to do those 
background checks.
    Are we going to go to the country of origin? How are we 
going to know, if we are just looking at paperwork? It is not 
going to happen and we are going to let bad people into our 
country legally.
    So I just want to make sure that we have that discussion as 
we move forward with these talks.
    If I can just go on, Mr. Dinkins, I--back in 2005 when I 
was mayor I had a lot of problems with drug trafficking, gang 
bangers, you name it. I came down to Washington in December 
2005, met with Department of Justice, brought on a lot of these 
experts in to talk to me. It was great. Spent the whole day 
here.
    At the end of the day I got this nice coffee mug, I got a 
lapel pin, and was sent home and realized that, you know, it 
was great to be able to come here but there--at--this was 2005, 
there was a real disconnect between local and the Federal 
Government. Now, we are talking about Guzman and, you know, 
what he is doing, but let's face it, you know, eventually those 
drugs get to the local dealer, they go into the streets, they 
are ruining the lives of children, and they are sucking out the 
quality of life of communities who cannot deal with the 
problem.
    How can we begin--or maybe you could reassure me that we 
are--reaching out to the local law enforcement who are really 
the people, the boots are on the ground, who deal with this and 
the cost goes to the local taxpayers. It is great that we took 
this guy out, but I don't feel any better today because I know 
as long as long as there is that need for the drugs there is 
going to be some punk selling drugs in our neighborhoods.
    If I could just, then, also say, maybe we could use some of 
this seized money to get people off the drugs, to get them 
off--you know, let's get the customers not to be customers 
anymore. If you can talk about that?
    Mr. Dinkins. Yes, sir. I agree.
    I can tell you that we are working with our State and local 
partners very, very closely. So I have about over 1,000 State 
and local law enforcement officers that we actually have cross-
designated and trained to have our same investigative 
authorities to help empower them as well as, I think, proof of 
that is we have over about 200,000 open criminal investigations 
at HSI right now; over 60 percent of those come from leads from 
our partners--from State, local, and other partners. So it is 
hand-in-hand.
    The police on the streets of our communities are the front 
lines of our defense. They are the ones that I am calling when 
I have somebody break into my house, the one that I am calling 
when my daughter is on drugs.
    So we have to work closely with them, and we do it in 
gains, document bills, you name it. In all of our case 
categories that we are investigating at the Federal level they 
are our key, key partner, as well as human trafficking.
    Mr. Barletta. Good. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCaul. I thank the gentleman.
    Chairman recognizes the gentleman from Arizona, Mr. Barber.
    Mr. Barber. Thank you, Mr. Chairman, and thank you for 
convening this hearing. I think this is one of the most 
important topics that we have discussed since I came here in 
June 2012.
    It is a constant issue for me, as one of nine members of 
the House that has a border district with Mexico, and I remain 
concerned, as I have said many times in this committee and in 
hearings, that we still have a huge hole in our border security 
efforts, and that hole is right in the middle of my district. 
You could geographically post it at Douglas, east of the New 
Mexico border--wide-open land, very rugged, very difficult to 
patrol. I understand that. Two mountains coming out of Mexico 
that bring the cartels and their drugs right through the 
ranches that--where the people I represent live and work and 
other businesses, as well.
    So we have to do better there, and I guess one way that I 
think we can do better--and this is a question, Mr. Dinkins, 
for you--is that we have a very close working relationship with 
the people who live and work the land. They have been doing it 
for generations. They know those canyons, those mountains, that 
land better than anybody.
    This morning I had a conference call--one of my regular 
conference calls with the ranchers and others stakeholders in 
the region and the area, and I rely a lot on their feedback 
about what is really going on, and we have the--obviously we 
have DHS representatives on the call, as well. But there are 
slightly different perspectives on what is really happening.
    So I guess, Mr. Dinkins, my question for you is: To what 
extent has ICE engaged stakeholders on and around the border? 
Do you know if you can comment on what the Mexican authorities 
have done on their side of the border?
    These people know the border. What have we done to make 
sure their eyes and ears are giving us the information that we 
can use effectively?
    Mr. Dinkins. Thank you, sir. Yes, we are working really 
collectively with both law enforcement in that region as well 
as--I know that Secretary Johnson was just down in that area 
and met with the ranchers associations and so forth.
    So we have been actively engaged in getting the information 
from the subject-matter experts, which are the boots on the 
ground. We also have a unique skill set there that we use, the 
Shadow Wolves, to actually--to help track and look for 
smugglers crossing the border through the mountainous terrains 
and desert.
    So we are actively engaged in that area and I think that we 
have made a lot of progress in probably the last 5 or 6 years 
at taking that information from the citizens that reside in 
those areas and trying to put that into action.
    Mr. Barber. There are two groups--stakeholder groups that 
were established quite a while ago that meet on a regular basis 
every month at Douglas and Naco. We also have them in other 
areas, but those two in particular are relevant to the 
discussion.
    It primarily convenes stakeholders with Border Patrol 
supervisors and others, and I would hope that ICE might from 
time to time join that discussion. I think there would be a lot 
of information gained that would be very useful.
    I guess I want to, Mr. Dinkins, continue with you with 
another question having to do with the emerging and on-going 
threats that we see from the cartels. In your opinion, what is 
the latest and most dangerous threat that the United States law 
enforcement officials face from the cartels and what are we 
doing to thwart it?
    I know that they are very nimble, they have more money than 
just about anyone, they are very fast at moving into new areas 
of threat. So could you give us your opinion on what the most 
dangerous emerging threat is and what we are doing to combat 
it?
    Mr. Dinkins. Yes, sir. I would say that their most major 
concern remains what it always has been as the bread and butter 
of their criminal organizations, which is drug trafficking, 
because it impacts the citizens of our communities and our 
children.
    We remain steadfast at attacking that issue, but we have 
also seen, then, as we have put pressure and it becomes less 
lucrative for them that--for them to move into other areas from 
smuggling, because it controlled geographical areas, so there 
is human smuggling involvement, as well as we have even seen 
them in intellectual property crimes, where, you know, the 
penalty and scrutiny may not be as high but yet the profits 
remain high.
    So we remain steadfast. I think that as we continue to 
exchange information with our Mexican counterparts and also 
even beyond, because those issues also come across the southern 
border of Mexico as well, and we have to take a whole-region 
approach to combating it and working with law enforcement 
across the board. Example: Mexico City training, when we had a 
gang training operation with our Mexican counterparts, we 
invited law enforcement from the entire region because it is a 
joint problem.
    Mr. Barber. Thank you.
    Mr. Chairman, I yield back.
    Chairman McCaul. Chairman now recognizes the gentleman from 
New Jersey, Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman.
    I would just like to start out--Mr. Feeley, and I 
appreciate the point you are attempting to make in reference to 
the extradition of El Chapo. The crimes that he has committed 
in Mexico--ultimately we have to be considerate that, you know, 
they have had issues with him in their own country prior to 
sending him to us, but we want to continue to make the effort 
for extradition.
    But I appreciate what you are saying. The crimes that he 
has committed in Mexico are heinous, and they have to deal with 
him in their country as well, so just wanted to make that 
point.
    Mr. Bersin, you know, the Calderon administration made 
unprecedented commitments to combating the drug trafficking 
cartels, and, you know, deploying thousands of resources in man 
hours to thwart that effort, and has worked with the United 
States very cooperatively. Now, there was a feeling that--a 
concern that when Nieto came in, the administration, there 
might be a step back, but it appears that he is as committed as 
the Calderon administration was.
    So how do you categorize the cooperation with the two 
administrations, comparing the two?
    Mr. Bersin. Thank you, Mr. Payne. I think, as my colleagues 
have suggested and--the cooperation is at a high level with 
both administrations. Differences in tone, differences in 
message, differences in personalities have not detracted from 
the fact that the relationship between the two governments, 
both in the trade context and in the security context, is--
remains unprecedented.
    So I think that when we see the results of the security 
efforts of President Pena Nieto that have brought down three or 
four major drug trafficking figures since he has been in office 
it is a confirmation of the conclusion that you expressed and I 
concur with.
    Mr. Payne. Thank you.
    Mr. Dinkins, good luck to you as you move forward. You have 
served this country well and--as a Government employee, and so 
now I guess you will go out and be a capitalist and make a lot 
of money.
    Let me ask you, you know, we have seen over the years the 
efforts that our law enforcement have made on the other side of 
the border, and, you know, much has been made of the security 
situation in Mexico for U.S. law enforcement--you know, the 
tragic death of ICE Agent Jaime Zapata and the shooting of ICE 
Agent Victor Avila.
    What is the current security situation in Mexico for ICE 
personnel, and have additional security measures been put in 
place to ensure their safety? Because we know this is dangerous 
business and, you know, the commitment that our ICE agents and 
other law enforcement agents have made--the commitment to this 
Nation to help rid that scourge, my concern is their safety as 
well, as they do this.
    Mr. Dinkins. Sir, and I share that concern and that is 
definitely something that is in the forefront of my mind, and 
probably the lowest moment in my career was explaining to Jaime 
Zapata's family in their living room hours afterwards about how 
he was killed.
    With that said is I am somewhat of an open book on this, 
but I don't want to be an open book in front of the world. So I 
would be happy to sit down with you personally and give you my 
perspective on that. I will say that I am comfortable with the 
situation, or else I wouldn't be sitting here today. But I 
don't want to expose what we do and what we don't do to 
anybody.
    Mr. Payne. Understandable.
    Chairman, I will yield back.
    Chairman McCaul. Thank you, Mr. Payne.
    Chairman now recognizes my colleague from Texas, Mr. 
O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman, for holding this 
hearing and convening these experts. I wanted to start by 
following up on a comment made by my colleague and hopefully 
help disabuse him and anyone else who might hold the notion 
that we can somehow conflate immigrants and aspiring citizens 
with criminality, drug dealers, and gang bangers.
    You know, as Mr. Bersin pointed out, El Paso is the safest 
city today; it has been for the last 4 years. That is, I think, 
in large part because of the large immigrant population we have 
in our community, not in spite of that.
    These immigrants in El Paso and----
    Chairman McCaul. Will the gentleman yield?
    Mr. O'Rourke. Yes.
    Chairman McCaul. I don't recall making a comment on----
    Mr. O'Rourke. It was Mr. Barletta----
    Chairman McCaul. So you are referring your comments to the 
gentleman from Pennsylvania?
    Mr. O'Rourke. Yes. Yes.
    Chairman McCaul. Just for the record, I want to make that 
clear.
    Mr. O'Rourke. Great. I know that as as a fellow Texan you 
understand that immigrants are part of the strength of our 
State, part of the reason that El Paso is so safe. These folks 
are trying to get ahead, make a better life for themselves, 
create better opportunities for their children, and I think 
hold a lot of promise and opportunity for us as a country. So I 
wanted to make sure that I could say that.
    I want to thank Mr. Dinkins and the government of Mexico 
and everyone involved in the capture of Chapo Guzman. You know, 
as someone from El Paso who saw what happened to Ciudad Juarez, 
where more than 10,000 people were killed in the most brutal, 
horrific fashion imaginable, we have a very strong interest in 
him being brought to justice. While I think something close to 
1 percent of those murders were ever fully investigated or 
prosecuted, I think it is generally held that he and the 
Sinaloan organization had a lot to do with the violence in 
Juarez and the murders that took place.
    But apart from bringing him to justice, apart from the 
symbolic value that Mr. Wilson talked about, the engagement and 
the fruits of that that we are beginning to see with this 
arrest, I really want to know what, if anything, is going to 
change.
    Just by way of context--and my colleague, Mr. Richmond, 
talked about this earlier--you know, we have had a 40-year war 
on drugs; we had Crockett and Tubbs battling the, you know, 
cartels and drugs coming in from the Caribbean; we mentioned 
Pablo Escobar in Colombia--I think we spent $8 billion on Plan 
Colombia, and they were cultivating and shipping more cocaine 
at the end of that than at the beginning of the $8 billion.
    We suppressed that to some degree, moved it to Mexico. We 
have captured Chapo Guzman, and good, for all the reasons that 
we have stated. What is going to change, in all reality?
    I would love to begin with Mr. Feeley and then hear from 
Mr. Wilson and Mr. Bersin.
    Mr. Feeley. Thank you very much, Mr. O'Rourke. Those are 
excellent comments.
    I will tell you that what I hope changes is a continuation 
and an acceleration of the trends that we have seen over the 
last 40, 50 years. First of all, I would like to say we tend to 
fall into being prisoners of our own language. ``War on drugs'' 
is not a term that the U.S. Government has used or espoused for 
a number of years.
    Our policy with regards to drug trafficking and narcotics--
transnational narcotics organizations in the Western Hemisphere 
is one that is guided by an understanding that you don't 
commit--you don't conduct war on anybody; what you do is law 
enforcement-based that contains--that includes prevention, 
education, and the--all of the full spectrum.
    Mr. O'Rourke. Right.
    Mr. Feeley. So if you look at what we have done in this 
country--and Mr. Richmond was talking about it earlier--cocaine 
use is down significantly in the last 30 years in this country. 
But yes, you are right, it continues to come in.
    My colleague said we are never going to stop all the crime, 
but what we can do is get it to where it does not become the 
exaggerated public security threat. I think as a result of our 
four mutually supportive regional partnership agreements with 
our Latin American----
    Mr. O'Rourke. What do you measure----
    Mr. Feeley [continuing]. Slow it down.
    Mr. O'Rourke. This is what I want to get to.
    Mr. Feeley. Sure.
    Mr. O'Rourke. We are spending--and you correct me, I 
thought it was $1.9 billion, it is $2.1 billion with Mexico on 
Plan Merida.
    Mr. Feeley. Right.
    Mr. O'Rourke. We have sent them Black Hawk helicopters, you 
know, kind of law enforcement material. We are now focused on 
this last pillar, which I think is far more productive: 
Improving civil society, their system of justice, their system 
of rule of law.
    All those things are great, and I think that is--especially 
that last part is a smart investment in Mexico. But from what 
we measure coming into this United States--you said this 
capture makes the United States safer. How are you measuring 
that? Because of his capture are fewer drugs getting in? 
Because of Plan Merida are fewer drugs coming into this 
country?
    What are we really doing to address the reasons behind why 
we began to spend this money in the first place? That is what I 
would ultimately like to see: How are we measuring--you know, 
across the board in this country, how are we measuring these 
vast sums that we are committing to border security, $18 
billion; to Mexico, $2.1 billion?
    What do I, as a taxpayer, get out of it at the end of the 
day? I don't know that we have a measurable answer to that. 
Because of a limit on time I would love to quickly hear from 
Mr. Wilson and Mr. Bersin on this, as well.
    Mr. Wilson. I would just agree that I share the concern 
that, you know, capturing a high-level criminal drug trafficker 
does not automatically lead to any reduction in the amount of 
drugs flowing across the border into the United States. I think 
that beyond just the symbolic value of the capture, it 
contributes to the building of the rule of law and the 
institutions that maintain the rule of law in Mexico, and I 
think that as a major partner of the United States, as one of 
the largest trading partners of the United States, as a 
neighbor, as a country that we share deep social ties with, 
there is a tremendous value in having a stronger neighbor, and 
in that way I think we get the biggest value out of the arrest 
of Chapo, out of the investments in Mexico's institutions and 
civil society.
    Mr. O'Rourke. Great.
    Mr. Bersin. Congressman, I think the best approach to 
responding to your very serious question is to look at it in 
terms of time frame. Just picking up on Mr. Wilson, look what 
has happened in Mexico in the last generation in terms of it 
becoming a 51 percent middle-class country, not the 
impoverished Mexico that we grew up with and thought about.
    It has become a democracy. Since 2000 it has a robust, 
functioning democracy, something that was unheard of a 
generation ago.
    The economy, the economic growth and its importance to us 
and to the prosperity of North America is something that has 
taken root in the last generation, such that it will have a 
larger economy than Germany if the trends continue over the 
next generation.
    So I think the answer is--you ask a reasonable question and 
the reasonable response is to say that we must manage this 
satisfactorily, we must have a deterrent that puts law and the 
rule of law on the front of our approach to these problems, 
recognizing that it takes a much longer term to deal with the 
social--underlying social issues that caused the problems, as 
Mr. Dinkins suggested in response to an earlier question.
    Mr. O'Rourke. Thank you.
    Thank you for your responses and your testimony.
    Mr. Chairman, I yield back.
    Chairman McCaul. Chairman recognizes the gentleman from 
Texas, Mr. Vela.
    Mr. Vela. Thank you, Mr. Chairman.
    Mr. Dinkins, I have to begin by putting in a plug for one 
of your agents who is working as a fellow this year in my 
office. Today he is the keynote speaker at the border sheriffs 
conference on South Padre Island, and I want to thank you for 
sharing him with us and with our folks down in South Texas.
    Mr. Bersin, I don't want you to take this as a challenge to 
your testimony because it is one of those incidents that you 
may just not be aware of, but it is also one of those things we 
can't keep--turn a blind eye to. But today in Mexico City 
Javier Garza Medrano is in custody. We have talked a lot about 
Chapo Guzman and his arrest.
    We had only one murder in the city of Brownsville this 
year, and although the killing took place in the city of 
Brownsville, it was masterminded by the cartel bosses in 
Matamoros, Mexico. It is something we need to keep an eye on 
because it just happened they came across--seven members of the 
cartel came across, killed an innocent man because they got the 
wrong guy, fled back.
    But on that note, you should know that on behalf of the 
Cameron County district attorney, he would like to thank all of 
our Federal agencies and our counterparts in Mexico who have 
taken part in that arrest. But I certainly think it is 
something that we should watch out for.
    Mr. Feeley, I wrote a letter to the President before his 
visit to Mexico in February and yesterday the State Department 
and Homeland Security responded. In their letter they say that 
the Mexican government is making significant progress in 
addressing crime and violence in border cities in the United 
States.
    My question is, they are not referring to the state of 
Tamaulipas, right?
    Mr. Feeley. Sir, we share your concerns about the violence 
in Tamaulipas, and we have engaged with Mexican authorities at 
the highest levels to encourage the government of Mexico to 
take measures to focus specifically on Tamaulipas. That is 
right on the border of your district and we are well aware of 
it.
    We have dedicated a significant amount of Merida 
programming to Tamaulipas to attempt to try and get them to be 
able to be more capable in dealing with them. Couple of 
examples: As you are well aware, the Bureau of International 
Narcotics and Law Enforcement has provided training to officers 
from Tamaulipas; they have all gone through the national police 
training programs. There are more Tamaulipas officers who are 
attending the national police training program's 2-week police 
tactics class in Pueblo that we ran just last year.
    We have provided, under Merida, a significant amount of 
assistance--about $330,000 in equipment--to their police 
academy in Ciudad Victoria. All of this indicates that we are 
focused on Tamaulipas.
    That said, I am not going to tell you that Tamaulipas is a 
place where it is safe for Americans to go. Our travel warning 
that was reissued in January of this year indicates that--
January 8, 2014--indicates that we advise U.S. citizens to 
defer nonessential travel to the state of Tamaulipas.
    The progress that we are seeing is slow. It is incremental. 
It is in building that capacity of state and local police 
officials and prosecutors and agents and judges in that very 
difficult state.
    Mr. Vela. Well, I am glad you mentioned the travel warning 
because I think that is something the public needs to know 
about in terms of being able to assess whether things are 
getting better there or not, and that way we can start working 
on what we are going to do about the situation, because the 
travel warning further says that all United States Government 
employees are prohibited from personal travel on Tamaulipas 
highways outside of Matamoros, Reynosa, and Nuevo Laredo due to 
the tenuous security situation.
    In Matamoros, United States Government employees are 
subject to further movement restrictions between midnight and 6 
a.m. United States Government employees--I probably shouldn't 
read this one, but--may not frequent casinos and adult 
entertainment establishments.
    Mr. Feeley. It is on the web, sir. You can read it.
    Mr. Vela. I know the casinos well, but for fear that my 
wife may see this someday, I don't know the adult entertainment 
establishments.
    Mr. Feeley. Duly noted.
    Mr. Vela. But, you know, we are limited on----
    Chairman McCaul. Without objection, so ordered.
    Mr. Vela. We are limited on time here, but the travels--
there is nothing different today about the travel warning that 
was issued in January. I mean, it is a pretty serious and 
critical condition that we need to get the Mexican government 
to pay attention to.
    Mr. Feeley. I couldn't agree with you more, sir.
    Mr. Vela. You know, the mayor of Matamoros, Leticia 
Salazar, I was just with her not but, you know, a week and a 
half ago; I was with her economic development administrator 
night before last. Of course, they had a serious incident in 
Matamoros just in December where there was a State Department 
emergency warning about it. I point-blank asked her, ``What 
kind of support are you getting from the federal government in 
Mexico City, you know, to help deal with the violence and the 
critical situation you have got in Matamoros?''
    The answer was, ``None.'' You know, it is certainly 
something that I hope we can work--you know, work together on, 
because I know Mexico is a big country that had great 
successes. We have had great successes together in Ciudad 
Juarez, in Tijuana.
    You know, but unfortunately, there are other places that it 
has only gotten worse, and I think--I would like to partner 
with our Federal Government and with the people in Mexico to do 
something about it so that we can make those things safe for 
the people that live there, so that we can make those places 
safe for those of us who grew up on the border to come back and 
forth the way we used to.
    Mr. Feeley. I couldn't agree more, sir.
    Mr. Vela. I yield.
    Chairman McCaul. Let me say thank you to the Members.
    I want to thank the witnesses.
    Mr. Dinkins, I also wanted to give a shout-out to details 
in my office: Mike Hatfield, Howard Bolick, and Dave Scott, who 
I understand may be moving back to my home State in Corpus 
Christi.
    I also want to thank Department of Homeland Security, HSI, 
ICE for their efforts in this historic takedown, and all 
Federal law enforcement. You are to be commended. This is, 
again, a very historic event in the war against the drug 
cartels.
    I also know that the government of Mexico and their 
officials are watching this hearing and I want to take the 
opportunity to thank them for their cooperation and encourage 
this new administration to continue its efforts, as we took 
down the leader of the Los Zetas--or they did. They also took 
down El Chapo Guzman, who has been on the most wanted list for 
decades.
    This is historic and the Mexican people and Mexican 
administration are to be commended for their efforts in this.
    I also would end by encouraging them to work with us on 
extradition. I think it would be very important to do to get 
him under incarceration where he can never get out of prison 
and will face justice and a maximum sentence.
    So with that, thank all of you for being here today. The 
hearing will be held open for 10 days; you may have questions 
in writing to respond to.
    Without objection, this hearing is now adjourned.
    [Whereupon, at 12:16 p.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              

        Questions From Hon. Loretta Sanchez for James A. Dinkins
    Question 1. Mr. Dinkins ICE agents, along with other U.S. law 
enforcement agencies are currently embedded in Mexico, working 
alongside their Mexican counterparts. What have been some of the 
challenges agents have encountered when dealing with their 
counterparts?
    Answer. Our relationship with our Mexican government partners--
including Mexico's military, local, state, and federal law enforcement 
agencies--is very robust and positive, particularly at the operational 
level. While there have been changes in the way in which we engage the 
government of Mexico (GOM), our agents have fostered a favorable 
working relationship with their counterparts.
    Under the administration of President Enrique Pena Nieto, Mexican 
federal law enforcement agencies experienced some structural and policy 
changes as the government of Mexico took a close and deliberate look at 
the U.S.-Mexico bilateral relationship, including security cooperation 
and its joint efforts with individual U.S. Government agencies. As part 
of this review, the Pena Nieto administration instituted a new 
ventanilla unica (``single window'') policy for assistance 
coordination, which requires all U.S. Government agencies to work 
through the Ministry of the Interior as a government-wide single point 
of contact to approve bi-national programs.
    Upon taking office, the Pena Nieto administration decided to 
disband the Public Security Ministry and consolidated a significant 
portion of the Mexican federal police under the Ministry of the 
Interior. This impacted some operational-level coordination.
    Question 2. Do you feel that Mexican law enforcement officials have 
the same standard and training on civil liberties and civil rights as 
our ICE agents do?
    Answer. Through the Merida Initiative, U.S. Immigration and Customs 
Enforcement (ICE), with the support of the Department of State conducts 
capacity-building activities with our partners in the government of 
Mexico, which, in part enable them to establish their own training 
practices. Since 2010, through the Mexican Customs Investigator 
Training program, ICE's Homeland Security Investigations International 
Operations and the ICE Academy have provided such instruction for 
several classes of Mexican customs officers. This comprehensive 
training curriculum, modeled after our own training curriculum for our 
special agents, consists of a rigorous 10-week basic course that covers 
investigative techniques, firearms training, physical fitness, and 
practical field exercises.
    The purpose of this course is to prepare Mexican customs officers 
to assume expanded duties and more comprehensive investigative 
responsibilities. While the curriculum does not solely focus on civil 
rights and civil liberties, it does cover proper protocols for 
conducting interviews and field activity. ICE anticipates continuing to 
assist Mexican customs in standing up their own investigator training 
course. As ICE does not have specific insight into the training that 
any of our counterparts may receive from their own country with regards 
to the legal observances of human rights standards and knowing that 
each country has differing constitutional requirements and justice 
systems, we will refrain on commenting on whether Mexican law 
enforcement officials have the same standard and training on civil 
liberties as ICE agents.
         Questions From Hon. Loretta Sanchez for John D. Feeley
    Question 1. In legislation I introduced last fall, H.R. 2872, 
Border Enforcement, Security, and Technology Act of 2013, I included a 
provision that would ensure that DHS and the State Department work with 
Mexico to overcome one of their biggest challenges, securing their 
southern border. One of the biggest challenges for Mexico in combatting 
cartels is securing its southern border from traffickers and criminals.
    What steps has Mexico taken to address its southern border?
    Question 2. What more remains to be done?
    Question 3. What can the United States do to assist this effort?
    Answer. Mexico's engagement with Central America on security and 
migration issues has increased significantly in recent years. Mexico is 
working with its Central American partners to combat organized crime, 
including Mexican drug trafficking organizations that have a presence 
in Central America.
    President Pena Nieto has expressed interest in cooperating with the 
United States and other regional partners to support the Central 
American countries' efforts to improve security and expand their 
economies.
    Mexico has also been an active participant with the United States 
in fostering the Central American Integration System (SICA) Regional 
Security Strategy. The April 2013 SICA--North America Security Dialogue 
brought together representatives from all the Central American 
countries, the United States, Mexico, and Canada. The new forum allowed 
participants to synchronize our efforts and enhanced regional 
coordination on security programming.
    Mexico's southern border strategy is designed to increase Mexico's 
inspection and interdiction capacities, and reduce drug and human 
trafficking along its southern border, which currently has 11 formal 
crossings and more than 370 informal crossings. Mexico's effort to 
improve security along its southern border includes the construction of 
12 permanent naval bases along its southern river borders and the 
development of multiple choke points in the southern border region to 
counter illegal migration and drug trafficking.
    To date, Merida Initiative funds have provided $6.6 million of non-
intrusive inspection equipment to Mexican officials stationed at the 
southern border and approximately $3.5 million in mobile kiosks that 
capture the biometric and biographic data of migrants living, working, 
and transiting southern Mexico. In addition, the Mexican National 
Migration Institute is strengthening immigration verification and 
control operations across points of entry and internal checkpoints, 
including at the southern border.
    Future Merida Initiative assistance will support Mexico's efforts 
to increase its interdiction and criminal detection capabilities along 
its southern border by providing a more mobile, integrated border 
management system, involving sophisticated non-intrusive inspection 
equipment and communication technologies, that will allow these 
agencies to successfully detect illegal persons and goods.

                                 <all>

</pre></body></html>
